<html>
<title> - THE CUBAN PROGRAM: TORTURE OF AMERICAN PRISONERS BY CUBAN AGENTS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





    THE CUBAN PROGRAM: TORTURE OF AMERICAN PRISONERS BY CUBAN AGENTS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                       THURSDAY, NOVEMBER 4, 1999

                               __________

                           Serial No. 106-118

                               __________

    Printed for the use of the Committee on International Relations


 Available via the World Wide Web: http://www.house.gov/international 
                               relations

                                 ______
                    U.S. GOVERNMENT PRINTING OFFICE
65-278 cc                   WASHINGTON : 2000





                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
     Caleb C. McCarry, Senior Professional Staff Member and Counsel
                    Marilyn C. Owen, Staff Associate
                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

Colonel Jack W. Bomar, United States Air Force, Retired..........     7
Andres F. Garcia, Vice President, Cuban American Veterans 
  Association....................................................    16
Captain Raymond Vohden, United States Navy, Retired..............    10
Michael D. Benge, civilian Economic Development Officer and 
  Prisoner of War Historian......................................    13
Robert L. Jones, Deputy Assistant Secretary of Defense, Prisoner 
  of War/Missing Personnel Affairs, Department of Defense........    28
Robert J. Destatte, Chief Analyst, Research and Analysis 
  Directorate, Defence Prisoner of War and Missing in Action 
  Office, Department of Defense..................................    30
The Honorable Mark Foley, a Representative in Congress from the 
  State of Florida...............................................    19

                                APPENDIX

Prepared statements:

The Honorable Benjamin A. Gilman, a Representative in Congress 
  from New York and Chairman, Committee on International 
  Relations......................................................    50
 The Honorable Ileana Ros-Lehtinen a Representative in Congress 
  from Florida...................................................    51
Colonel Jack W. Bomar............................................    54
    Col. Jack W. Bomar supplement: A definitive history of 
      American Prisoner-of-War Experience in Vietnam, 1964-1973, 
      entitled ``P.O.W.'' by John G. Hubbell.....................    58
Andres F. Garcia.................................................    95
Raymond Vohden...................................................   107
Michael D. Benge.................................................   114
    Michael D. Benge supplementary research on ``Cuban War Crimes 
      Against American POW's During the Vietnam War''............   121
Robert L. Jones..................................................   140
Robert J. Destatte...............................................   143

Additional material submitted for the record:

Letter to Honorable Lewis J. Freeh, Director, FBI, dated 
  September 24, 1999, from the Honorable Ileana Ros-Lehtinen.....   148
Letter to Honorable Doris Meissner, Commissioner, U.S. 
  Immigration and Naturalization Service, dated October 6, 1999, 
  from the Honorable Ileana Ros-Lehtinen.........................   149
Letter to Honorable Douglas B. Peterson, U.S. Ambassador to 
  Vietnam, dated October 6, 1999, from the Honorable Ileana Ros-
  Lehtinen.......................................................   151
Letter to Honorable William J. Clinton, President, dated October 
  26, 1999, from David Monson, President of Paralyzed Veterans 
  Association of Florida, Inc....................................   153
Letter to Honorable Lewis Freeh, Director, FBI, dated November 1, 
  1999 from Benjamin A. Gilman...................................   154
Letter to Honorable Ileana Ros-Lehtinen dated November 4, 1999, 
  from Pete Peterson, Ambassador, Embassy of the United States, 
  Hanoi..........................................................   156
Letter to Honorable Benjamin A. Gilman dated November 22, 1999, 
  from Robert L. Jones, with attachment concerning Aircraft 
  Losses.........................................................   157
Letter to Honorable Robert L. Jones dated December 15, 1999, from 
  Benjamin A. Gilman.............................................   159
Letter to Honorable Benjamin A. Gilman dated January 10, 2000 
  from Robert L. Jones...........................................   160

 
    THE CUBAN PROGRAM: TORTURE OF AMERICAN PRISONERS BY CUBAN AGENTS

                              ----------                              


          Thursday, November 4, 19994House of Representatives,

              Committee on International Relations,
        Washington, D.C.
    The Committee met, pursuant to notice, at 10:10 a.m., in 
room 2172, Rayburn House Office Building, Hon. Benjamin A. 
Gilman (Chairman of the Committee) Presiding.
    Chairman Gilman. The Committee will come to order. Members 
please take their seats.
    Between July 1967 and August 1968 a team of interrogators, 
believed to be Cubans, brutally beat and tortured 19 American 
airmen, killing one in the prisoner of war camp known as ``The 
Zoo.'' I want to thank Congresswoman Ileana Ros-Lehtinen, our 
distinguished Chairman of our Subcommittee on International 
Economic Policy and Trade for her leadership in pursuing this 
issue.
    I served on the Select Committee that initially 
investigated the fate of American prisoners of war and those 
missing in action, and I look forward to hearing from our 
witnesses today. This morning, we will hear testimony from two 
distinguished panels.
    On our first panel, we are honored to have three former 
prisoners of war, including two who were subjected to the so-
called ``Cuban Program'': Captain Raymond Vohden, who later 
served with the Defense Department's POW-Missing Personnel 
office, and Air Force Colonel Jack Bomar, of Arizona. Our other 
witnesses include Michael Benge, a foreign service officer who 
was a prisoner of war in Vietnam for 5 years; and Andres 
Garcia, the Vice President of the Cuban American Veterans 
Association.
    On our second panel, we will be joined by Robert Jones, 
Deputy Assistant Secretary of Defense for Prisoner of War and 
Missing Personnel Affairs; and Robert Destatte of the Defense 
Department's Prisoner of War-Missing Personnel office.
    Recent press reports have revived interest in this terrible 
chapter of the Vietnam War and raised hopes that those 
responsible for those crimes can be identified. In that regard, 
we have written to FBI Director Louis Freeh to ask the Bureau 
for its assistance in pursuing information in the files of 
former Soviet Bloc countries regarding the Cuban program.
    Those who murdered or tortured our American servicemen are 
still at large somewhere, possibly in Cuba. There is no statute 
of limitations on the crimes committed against these American 
servicemen. Neither shall there be a statute of limitations on 
our commitment to discovering the true identity of those 
responsible for such crimes, so that they may be brought to 
justice. Our Nation owes this to the courageous men and women 
who served us so loyally in Vietnam.
    Before we begin with our first panel, let me ask our 
Ranking Member, Congressman--Judge Hastings, if he would like 
to make any opening remarks.
    Mr. Hastings. In the interest of time I will ask that any 
comment that I make be inserted in the record.
    I would like to thank Ileana Ros-Lehtinen for her 
leadership in this effort.
    Thank you, Mr. Chairman.
    Chairman Gilman. Dr. Cooksey has asked to be recognized.
    Mr. Cooksey. Thank you, Mr. Chairman.
    My request, Mr. Chairman is that we minimize opening 
statements as much as possible. I am particularly interested in 
this issue. I want the facts out. I would like to have the 
maximum amount of time with these witnesses. Due to a counter-
request, I am not going to demand that we have a total limit of 
time. But I hope we can get to the witnesses.
    Chairman Gilman. We will get to the witnesses as quickly as 
possible. I would like to recognize the distinguished Chairman 
of the Subcommittee on International Economic Policy and Trade, 
Ms. Ros-Lehtinen, the gentle lady from Florida.
    Ms. Ros-Lehtinen. Thank you so much. I would like to thank 
you, Chairman Gilman, for convening this hearing and for your 
leadership and commitment. This issue is particularly important 
to me for various reasons; but most importantly, as I read 
through the accounts of what our men and women in uniform have 
endured throughout this century of war, I think of my husband, 
Dexter Lehtinen, who served in the Special Forces in Vietnam 
and was injured in combat--he was relatively fortunate, but so 
many were not.
    I look at our POW's who are here today, many in our 
audience especially, and I am humbled by their sacrifices and 
honored to know them. I thank them for sharing their stories 
with us. I know that it is difficult, but their presence is 
indicative of their caliber as human beings and as citizens in 
the service of our country.
    The Geneva Convention prohibits ``violence to life and 
person, in particular murder of all kinds, mutilation, cruel 
treatment and torture and outrages upon personal dignity and 
particular humiliating and degrading treatment.'' This is 
exactly what took place at a prison camp in North Vietnam known 
as ``The Zoo,'' seen there in a declassified aerial photograph 
during the period of August 1967 to August 1968, where 19 of 
our courageous servicemen were psychologically tortured, some 
brutally beaten by interrogators assessed to be Cuban agents 
working under orders from Hanoi.
    Described by some to be a psychological experiment, the 
goals of the ``Cuba Program,'' as the torture project has been 
labeled by our Defense Department and our intelligence 
agencies, has been described in different ways as an attempt to 
test interrogation methods, to obtain absolute compliance and 
submission to captor demands, and ultimately to be used as 
propaganda by the international Communist effort, as Mike Benge 
will elaborate upon during today's session.
    Some POW's were tortured and then instructed to copy a 
series of questions and answers given to them by their 
interrogators. These excerpts on most occasions included 
statements declaring that the United States was waging an 
illegal, immoral, and unjust war.
    Prisoners were tortured--again, some psychologically, 
others physically--to ensure cooperation in appearances they 
were forced to make before visiting delegations. Refusal to 
comply with the captor's demands usually meant that ``Fidel,'' 
``Chico,'' and ``Pancho''--as the torturers were called by our 
POW's--would be called in for more intense beatings of the 
prisoners.
    In a chapter of ``P.O.W.,'' a book published by Reader's 
Digest Press in 1976, Colonel Bomar describes different 
incidents where attempts were made to break the prisoners so 
they would recite the Communist Vietnam script before visiting 
groups.
    One of these occurred on July 3, 1968, when the camp medic 
entered the cell of Air Force Major James Kasler to bandage his 
draining leg. Having defied the camp commander the day before, 
telling him he would not tow the line before a delegation which 
as to visit ``The Zoo,'' Kasler knew that this visit meant that 
it was done, as he says, prior to torture to keep the blood and 
the pus from staining the interrogation room.
    Within an hour he was in torture. Enter ``Fidel.'' 
``Fidel'' reached down, grabbed Jim by the neck of his shirt, 
and shook him like a rag doll. ``Fidel'' seemed beside himself 
with rage. Then he slammed the heel of his boot down in the 
center of Kasler's chest. Jim gasped, fought for air.
    Kasler would not cooperate, and after a while, ``Fidel'' 
shifted psychological gears, offering a drink of water, a 
cigarette, turning a small table fan on Kasler. Unable to get 
him to surrender, ``Fidel'' administered another beating, and 
another and another. Jim's thumbs were wired together describes 
Bomar, ropes were tied around his elbows. The flogging went on 
and on. After 36 lashes Kasler's lower back and legs hung in 
shreds. This skin had been entirely whipped away and the area 
was a bluish, purplish, greenish mass of bloody raw meat.
    Unable to get Kasler to surrender, ``Fidel'' promised to 
return the next day for more.
    The ruthless nature of the interrogators and the severity 
of their actions led prisoners such as Captain Raymond Vohden 
and Colonel Jack Bomar, as well as Lieutenant Carpenter, who is 
in the audience today, to question how human beings could so 
batter another human being. They stood firm in the face of 
unrestrained brutality, intimidation, and humiliation 30 years 
ago.
    They are demonstrating their courage here again today by 
working with us to ensure that the sacrifices made in defense 
of freedom and democracy are not forgotten; to ensure that the 
life and death of one of their fellow POW's and victims of the 
``Cuba Program,'' Air Force pilot Earl Cobeil, who is pictured 
in one of the posters there, is not ignored; to ensure that 
justice is indeed served.
    Captain Vohden and Colonel Bomar will offer compelling and 
detailed testimony describing the actions committed against 
them by Cuban agents at ``The Zoo,'' acts which are in direct 
violation of the Geneva Convention on Prisoners of War. To 
violate the provisions enshrined in this document runs against 
the grain of civilized society and undermines the integrity of 
our international community as a whole. Humanity is one; when 
one suffers, we all suffer. Violations of this protocol are not 
just crimes against one individual, but against all of 
humanity.
    That is the message that one of our witnesses, Andres 
Garcia, of my congressional district, a Vietnam veteran and the 
Vice President of the Cuban American Veterans Association, will 
underscore today.
    Survivors of the ``Cuba Program'' have been eager to 
identify and trace the Cuba agents who systematically 
interrogated them and tortured their fellow Americans. Yet 
despite their efforts, a successful resolution of this matter 
has not been achieved. This hearing is the first of many steps 
aimed at changing that outcome.
    We hope to accomplish three goals today. The first is to 
get leads that could take us closer to an identification of the 
Cuban torturers. Could ``Fidel'' be Fernando Vecino Alegret, or 
is he Luis Perez Jaen, as a 1974 CIA report alleged? Is 
``Chico'' a man by the name of Veiga, as our intelligence 
agencies suggested in this same document? Is Gustavo Robreno 
Dolz the man our POW's called ``Pancho?'' The answer to these 
should be our first priority.
    Our second goal is to provide the basis for an ensuing 
interagency investigation of new evidence, including a search 
of pertinent data and sources previously unavailable under Cold 
War parameters. We are fully cognizant of the mission of DOD's 
Office of POW/Missing Personnel who will be testifying today, 
and while they are most familiar with the ``Cuba Program,'' 
they have completed their mission successfully by accounting 
for and bringing back all 20 of our servicemen who were part of 
the ``Cuba Program.'' We want the State Department, CIA, FBI, 
INS, and the Defense Intelligence Agency to coordinate the 
comprehensive approach to this case.
    Last, this hearing will begin to establish the foundation 
for future action against the torturers.
    On a broader scale, this investigation will serve to 
highlight the brutal nature of the Castro regime and the 
historic and ongoing threat it poses to the American people. 
Ultimately, our hope is that this hearing will serve to honor 
those POW's who were willing to give life and limb so that we 
may all be free.
    Mr. Chairman, as part of our preliminary investigation on 
this issue, I requested information from INS, FBI, and the 
Vietnamese Government through our embassy in Hanoi. I ask that 
these letters be included in the record of today's proceedings.
    Chairman Gilman. Without objection.
    Mr. Ros-Lehtinen. Just this morning I received a letter 
from Ambassador Peterson in Hanoi which I would like also to be 
included in the record.
    Chairman Gilman. Without objection.
    [The letters appears in the appendix.]
    Ms. Ros-Lehtinen. In the letter he states, ``I have 
personally presented your request to the appropriate Vietnamese 
officials.'' He further states that, ``Given my personal 
experience, I share and deeply appreciate your abhorrence for 
the inhumane treatment of POW's by any country.''
    Thank you, Mr. Chairman, for your leadership.
    Chairman Gilman. Thank you, Chair lady Ros-Lehtinen.
    [The prepared statement of Ms. Ros-Lehtinen appears in the 
appendix.]
    Chairman Gilman. Mr. Menendez.
    Mr. Menendez. Thank you, Mr. Chairman. Let me, at the 
outset, thank you, Mr. Chairman, for giving your attention to 
this issue in the crowded agenda of the Committee's schedule 
and for agreeing to hold a hearing before the Committee.
    Let me also recognize the leadership of my colleague from 
Florida, Ileana Ros-Lehtinen, for pursuing what others would 
clearly want to have be a closed door on a sad chapter in our 
relationships. Let me salute all of those whose testimony today 
will relive some painful memories, but whom we appreciate in 
our effort to ultimately get to the truth.
    While it has been more than 30 years since the ``Cuba 
Program'' ended for the 19 American POW's who suffered the 
daily beatings and interrogations of their Cuban torturers, the 
``Cuba Program'' remains for them a vivid memory, and for some, 
an everyday nightmare.
    Today, we are here to announce that the search for 
``Fidel,'' ``Chico,'' and ``Pancho'' Garcia is not over. The 
atrocities committed by these Cuban agents constitute clear 
violations of the Geneva Convention, which has no statute of 
limitations. It is our intent to reinvigorate the 
investigation, uncover the identities of these men and bring 
them to trial for their crimes.
    I have read the information provided by the Department of 
Defense, which provides detailed accounts of the Cuban program. 
Unfortunately, the Department has been unable to definitively 
identify the Cuban perpetrators, but I believe our search does 
not end here. The clues we need to positively identify the 
three Cuban torturers may very well lie in the further review 
and declassification of documents from that time period, which 
I will join my colleague in pursuing.
    We have encouraged the Department to renew its effort so 
that we can find these men before it is too late to bring them 
to trial or too late for their victims to see them brought to 
justice. We should also fully investigate Fernando Vecino 
Alegret, the man identified by retired Air Force Colonel Ed 
Hubbard as ``Fidel.'' It seems quite feasible that the man who 
has claimed to be Cuba's Minister of Higher Education for more 
than 20 years was part of the ``Cuba Program.'' Alegret's 
contention that he doesn't, ``have the face of a torturer'' is 
hardly a satisfactory response.
    The allegation against Vecino Alegret is not a recent one. 
A Washington Post article of March 5, 1981, indicates that not 
only did he take part in the ``Cuba Program,'' but that he was 
one of the most-watched people in Latin America by U.S. 
Intelligence services. He has been linked to Cuba's Cold War 
activities in Central America and Africa and served as Cuba's 
military attache to Vietnam during the time of the ``Cuba 
Program.''
    Now, personally, I can't tell you that he is ``Fidel,'' but 
certainly his past should tell us that he is not above 
scrutiny. As former Chilean Dictator Pinochet has discovered, 
the passage of years has increased, not decreased, the 
likelihood of prosecution in cases involving violations of 
international law.
    I welcome that reality. I would hate to think that in the 
world we would send the message that those who think that 
through the passage of time they can escape the violations of 
international law and the consequences that one should receive 
for those violations. That would send a very wrong message.
    Castro's tyranny continues today in Cuba, not against 
American POW's, but against his own people. Pinochet's trial 
sends a message to all individuals who violate human rights 
that they, too, can and will be held accountable for their 
crimes.
    I look forward to the testimony. I will be going back and 
forth, Mr. Chairman. I have a hearing across the hall, 
unfortunately, at the same time. But I have read the testimony 
that has been submitted to the Committee. I think it is rather 
compelling and gives us a strong foundation to move forward in 
the future, and I thank you.
    Chairman Gilman. We will now proceed with the statement of 
Mr. Rohrabacher.
    Mr. Rohrabacher. I will be very quick, because I know Mr. 
Cooksey wants to get right to the testimony, and so I do.
    Let me just say that Ileana has done a terrific job here. 
We all owe her a debt of gratitude. It is about time we set the 
record straight about Fidel Castro; and there are just so many 
misconceptions and so many false images created about this 
monster. I mean, Fidel Castro is portrayed by so many on the 
left as being some nationalist just opposed to American 
domination, but you take a look at the picture a little closer 
and you are going to find that that man is a ghoul.
    He is a criminal, he is the worst type of gangster and ran 
a gangster regime for all these years in Cuba. He was, from the 
very beginning, a fanatic Communist who put his own people, 
thousands of them, in harm's way throughout the world, as 
cannon fodder for the Communist movement in Africa; and he sent 
his people--he hated the United States so much that he sent his 
people over to torture Americans in Vietnam. We need to know 
these facts.
    I am very pleased that you are here with us today to alert 
the American people about Fidel Castro--that his past crimes 
shouldn't be just sloughed off and taken lightly. This man is 
as evil a war criminal and is as committed to crimes against 
humanity as have ever been committed in this century. We need 
to remember that and make sure we put it on the record.
    So thank you for helping set the record straight and being 
with us today.
    Chairman Gilman. Thank you, Mr. Rohrabacher.
    We will now proceed with testimony from our witnesses.
    Chairman Gilman. United States Air Force Colonel Jack Bomar 
was born in Michigan in 1926. After refusing a transplant to 
correct a kidney disorder, Colonel Bomar was grounded, but was 
later granted a waiver at his request and assigned to the 41st 
Tactical Reconnaissance Squadron in Thailand. Colonel Bomar was 
shot down over North Vietnam on February 4, 1967. During his 
captivity, Colonel Bomar was tortured by the Cuban known as 
``Fidel.'' Colonel Bomar retired from the Air Force in 1974.
    Colonel Bomar, you may proceed with your testimony. We will 
put your full statement in the record and you may summarize, 
whichever you deem appropriate.

   STATEMENT OF COLONEL JACK BOMAR, UNITED STATES AIR FORCE, 
                            RETIRED

    Mr. Bomar. Mr. Chairman, Members of the Committee. My 
testimony is a summary of a lengthier, more detailed statement.
    Chairman Gilman. Do you want to put the full statement in 
the record at this time?
    Mr. Bomar. I ask that it be included in its entirety in the 
record.
    Chairman Gilman. Without objection. Please proceed.
    Mr. Bomar. Good morning. My name is Jack Bomar, retired Air 
Force Colonel. I am a graduate of the ``Fidel'' Program, Class 
of 1968. I wish to thank the Members of this panel for their 
interest in uncovering the truth about a subject that has been 
buried for 31 years--especially you, Ileana Ros-Lehtinen from 
Florida.
    When I was shot down in 1967, we were flying an ECM 
aircraft out of Takhli, Thailand. It is kind of amazing that a 
SAM suppression aircraft can get knocked down by a SAM. But 
that is what happened. There were six of us on the aircraft; 
three of us survived. One was captured by the Chinese and 
turned over to the North Vietnamese. I went through the initial 
torture of peasants on the ground trying to spear me with 
spears as I came toward the ground. I kicked one of them aside 
and in doing that, I think I ruptured a disc in my back, and 
broke an ankle. I got a big chunk of shrapnel through my left 
leg before bailing out. So when I arrived in North Vietnam, I 
was not in the mood for games. I was tired, I just wanted a 
drink of water and to be allowed to lay down. The peasants 
tortured me all day.
    Finally I got into Hanoi that night, and went into some 
real torture by the North Vietnamese.
    They didn't need our ``Fidel'' to teach them how to torture 
people. The Vietnamese were experts at this. I went through 
what we call the ``Rope Trick.'' Your arms are tied behind your 
back, wrists in manacles and the pressure is slowly applied to 
the upper arms with straps. Eventually I was hung from a hook 
because I would not reveal the names of my crew.
    Finally after three days with no food or water, constant 
interrogation, the camp commander was suddenly there, then 
gone. The torture guy--we call him ``Straps and Bars''--applied 
the pressure again. Finally, they showed me a list of my crew 
members, so they had been working on one of the other three of 
us pretty harshly.
    I was sent to ``The Zoo'' and put in a camp where I met a 
delegation from the United States. There were three men in this 
delegation. One was a doctor, I think from France, one was a 
lawyer from Denmark or someplace, and the other was an anti war 
type from Berkeley, California, named Neilands, a professor 
from Berkeley. He and I immediately hit it off by him sticking 
out his hand--I was on crutches, had bandages from here to here 
to cover up all the wounds on my hands. I asked him, ``What the 
hell are you doing in North Vietnam?'' He said, ``Dean Rusk, 
the son of a bitch, will not tell me where I can go and when I 
can be there.'' So my purpose, primarily, was to get a letter 
to my family, which got my name out in public. We felt that if 
you were known to be a POW, your survival chances were much 
greater than those that were not known.
    After that interrogation, I was tortured several more times 
by the Vietnamese and thrown into solitary. I was in solitary 
confinement in June. After the delegation visit, there was no 
more treatment for the hole in my leg. I dug the shrapnel out 
with my fingers. I was on crutches when I saw the delegation; 
but now the crutches were long gone. Because of my attitude at 
the delegation, I was stashed in solitary.
    Suddenly they came in and wanted me to meet ``several of my 
countrymen''. I think they said, ``When you go to Quiz at 
night, it is a pretty scary thing; you are not sure what is 
coming.'' I wasn't sure when I walked in the room with Dum Dum 
and there were two Caucasians sitting at this table, and the 
one in the center was quite tall, spoke good English, had a 
Latin accent, offered me a cigarette, which I refused; and then 
I took it after a few words of encouragement from him. On his 
side was another gentleman--smaller, lighter hair, I believe--
and they said, ``Where do you think we are from?'' I said ``I 
think you are from Romania.'' It was obvious that they were 
Latin Americans. He said he was there to help me with my 
defense. I was to be tried by the war crimes tribunal, the 
Bertrand Russell Tribunal for War Crimes against the Vietnamese 
people, and he would work on my defense for me. Then he sent me 
back to the room.
    I didn't know what to make of these two guys, but they 
weren't the normal delegation like the one I had just seen. 
They were a little scarier; they were a little more intense. 
They were sitting with the camp commander to his right, which 
is a position of authority. I was called back a couple of days 
later after he told me now we must fill out a sheet of paper 
and you will describe your aircraft, 20 pages written there. I 
left it lying on my bunk. Being in solitary, I had a bunk 
there, a platform of boards, and I left it blank. Finally, at 
the last minute, I scratched in a crude sketch of the aircraft. 
This is a wing, this is a window, this is a door--this is the 
top, this is the bottom, pure nonsense. The next day I gathered 
up my stuff, and I met with two other POW's.
    Ray Vohden was one of them, on crutches. He was badly hurt; 
he had also met ``Fidel.'' The other one was a gentleman named 
Dave Duart; I think he was an Air Force captain flying a 105. 
There we sat in this room looking at each other, wondering, 
what is going on here. Ray Vohden made the--I will not repeat 
the statement he made, but it was, I think, that we are in deep 
you-know-what. and we were.
    We were in that position maybe three or four weeks. We 
would go to Quiz, he would threaten us; ``Fidel'' would 
threaten us. His entire program to me, I felt was, you will 
surrender. He didn't say surrender to what, he didn't say what 
he wanted you to do, he said surrender. I think he was running 
a surrender program up there and could get maybe 10 or 15 POW's 
to surrender to anything that came up. That's a bad position to 
be in.
    I was badly tortured by him when I refused to surrender, or 
as he said, choose the match box or choose the cigarette case. 
The match box I chose and went through the straps again. It was 
just as bad the second time with the manacles that tore up my 
hands. I was just off crutches, I didn't walk that well right 
then. So he got my attention after a guard came running toward 
me and grabbed me by the throat and tried to crush my windpipe. 
That got my attention.
    So I nodded, ``I surrender.'' There was some histrionics of 
knocking me around the room, and I was sent back to solitary 
confinement with some leg irons. We were finally joined in a 
large group, either nine or ten POW's, and some of them are 
right here. Jim Kasler was not in our group, as such.
    I felt that we were being held in limbo there. He would 
threaten us. He would send us to Quiz. We would go back there, 
back and forth. He sounded like a Cuban revolutionary to me--
Che Guevara. I made a big mistake one day; when Che Guevara 
died, I said something like ``Good riddance''--really a bright 
statement at the time--and that got me in real big trouble, as 
if I could get in any more.
    We were joined eventually by a fellow prisoner, Earl 
Cobeil. Cobeil was a complete physical disaster when we saw 
him. He had been tortured for days and days and days. I went 
down to clean him up. When ``Fidel'' dragged us down there, he 
said, Clean him up; and if anything happens to this man you, 
Bomar, are responsible. Then he hit him right in the face, 
knocked him down again.
    His hands were almost severed from the manacles. He had 
bamboo in his shins. All kinds of welts up and down all over; 
his face was bloody. He was a complete mess. They brought him 
into the room and as far as we could tell, Captain Cobeil was 
totally mentally out of it. He did not know where he was. I 
don't think he knew where he had been or where he was going. He 
was just there.
    ``Fidel'' began to beat him with a fan belt. I call it a 
fan belt but it wasn't really a fan belt. I think it was the 
side of a Russian truck tire, a very, very painful experience 
to be hit by this length of fan belt. I saw Cobeil hit as many 
as 12 or 13 times directly in the face. He never blinked his 
eyes. He never opened his mouth. He just stood there.
    We had him in our cell for I would say 8 months or so. He 
refused to eat. He refused to bow to the guards. You must 
understand when the door opened, the guards demanded you will 
bow, all criminals will bow. We were always a criminal in North 
Vietnam. We were never a POW. We were governed by the camp 
regulations, not the U.S. code of conduct for military 
personnel.
    We took care of Cobeil for about a year. We force-fed him 
by holding him down, putting a stick in his mouth, and pushing 
the food down his throat. In all that time he never recognized 
anything that was going on. Finally he was removed from the 
room for electrical shock treatments, and then finally was 
gone. I understand he died a couple of years later there at the 
Hanoi Hilton.
    I don't believe ``Fidel'' was in Hanoi just to torture 
American POW's. I think that events controlled him that he had 
no control over. I think the Tet Offensive of 1968 was 
involved. I think when Johnson halted the bombing in 1968, that 
involved what ``Fidel'' was doing up there. I believe a 
conference that was taking place in Hanoi--Havana in 1968 had 
something to do with ``Fidel'' being up there. I think we were 
being prepared for some selective release that would enhance 
the Vietnam image of lenient and humane treatment worldwide. We 
were almost waiting for something to trigger this release.
    ``Fidel'' used torture not for direct propaganda or anti 
war statement as the Vietnamese did. He used torture to break 
us initially, and to control us and keep us right under his 
thumb so we would do what he wanted done. His brutal torture of 
Cobeil and Kasler was due mostly to his frustration and his 
inability to force his will on others.
    When he lost his temper, he was a complete madman. He would 
get red in the face; he just exploded with rage. So if you 
refused to bow to him like Cobeil refused to do or if I refused 
to take the cigarette case instead of the deal, his temper just 
went out of control.
    The North Vietnamese knew exactly what ``Fidel'' was doing 
up there. They may tell you that he was there to teach English 
to the guards. I don't think that had any part in it 
whatsoever. He was allowed to do to Cobeil, Kasler and others 
what was unjustifiable in any society, even a Communist 
society.
    Perhaps one day we will positively identify and locate this 
man. Thank you.
    Chairman Gilman. Thank you very much, Colonel Bomar.
    [The prepared statement of Colonel Bomar appears in the 
appendix.]
    Chairman Gilman. Our next witness is Captain Raymond 
Vohden. Captain Vohden was shot down over Vietnam. He was held 
as a prisoner of war from April, 1965 through February 12, 
1973. During his captivity, he was tortured by the Cuban known 
as ``Fidel.'' From 1975 to 1978, he served as a principal 
adviser to the Secretary of Defense on POW/MIA matters.
    Captain, you may put your full statement in the record or 
summarize, whichever you may deem appropriate. Please proceed.
    Mr. Chabot. Excuse me, Mr. Chairman. There is a vote on the 
floor.
    Chairman Gilman. We are going to continue. Mr. Rohrabacher 
has gone over; he'll come back and preside while we go over to 
vote. Please do it quickly if you are going over, because we 
have so many witnesses we want to hear.
    Chairman Gilman. Please proceed, Captain Vohden.

   STATEMENT OF CAPTAIN RAYMOND VOHDEN, UNITED STATES NAVY, 
                            RETIRED

    Mr. Vohden. Mr. Chairman, Members of the Committee, my 
testimony is a summary of a lengthier, more detailed statement. 
I ask that it be included in its entirety in the record.
    Chairman Gilman. Without objection.
    Mr. Vohden. In August 1964, I was assigned to Attack 
Squadron 216 as the operations officer flying in the A4C 
Skyhawk off the USS Hancock. Our carrier was in the South China 
Sea in early 1965 when the war against North Vietnam began to 
escalate.
    On my fifth mission, I was shot down bombing a bridge in 
North Vietnam. I broke both bones above the ankle when I 
landed. I was then taken to the camp known as the Hanoi Hilton, 
where I was in complete solitary and was never moved off a 
wooden board for four months except to go to the hospital for 
two hours one night.
    For the next 2\1/2\ years I was moved from camp to camp, 
until being sent to ``The Zoo'' in November 1965. In the early 
part of 1967, September 1967, I was looking forward to the end 
of the war and my homecoming, when one night I was taken to an 
interrogation. To my astonishment, the man sitting across from 
me was a Caucasian. One of the Vietnamese camp officers sat 
next to him. We talked about the war for the next half hour. He 
had an excellent command of English and appeared to be very 
knowledgeable about the U.S. and the war.
    Several days later, I was moved to another room with Jack 
Bomar and another Air Force officer. They both had recently 
been shot down and had also talked to the Caucasian. One of us 
named him ``Fidel'' because we guessed he might be Cuban. 
Individually, we met with him daily. The war was essentially 
the main topic.
    One day I was taken to Quiz. ``The Elf,'' one of the other 
Vietnamese officers, was there. The Elf asked me four or five 
times, what orders did I give. I said, none. He left and came 
back with six or seven guards who forced me onto floor, put 
manacles on my wrists behind me and strapped my elbows together 
behind me. After some time he finally gave me a clue what the 
order was, it was about throwing food away. I had ordered--I 
was an SRO in a building one time before, and I told the guys 
to throw away some food because some of the younger people 
didn't get enough, so they thought it would be better if we 
didn't turn back food.
    Five minutes later, as they were taking the manacles and 
straps off, the door burst open. In comes ``Fidel,'' ranting 
and raving like a madman, pointing his finger at me and telling 
me that I better have a good attitude now and do everything he 
says. He slapped me 10 or 15 times. I then had to write on a 
piece of notebook paper that I surrendered to the Vietnamese 
people and would do everything they wanted me to do. He told me 
other things to write and then told me to sign it and then eat 
it to prove I would do everything he told me to do. Eating 
paper is interesting.
    I went back to the room with Bomar, but Bomar and Duart 
were gone. For the next two weeks, I was beaten 3 or 4 times a 
day until I became demoralized and depressed and started to 
lose my appetite. I finally gave up eating anything. After 
failing to eat several meals, ``Fidel'' came in yelling and 
screaming at me that I was trying to cheat him again and that 
he would kill me if I didn't eat. I had reached bottom. I 
didn't care if I lived or died. ``Fidel'' just stood there and 
watched. Without a word, he left.
    A week later, the tactic shifted; the treatment improved. 
``Fidel'' responded if we didn't use what he gave us we would 
be very sorry. One by one, more POW's joined us; all had been 
forced to surrender. At Quiz, ``Fidel'' tried every argument in 
the book to convince us that the U.S. was wrong in its war of 
aggression. Every day he reminded us not to become reactionary 
or we would suffer.
    One morning in early 1968, one of the camp officers came to 
the outside of our room and disconnected the wires to our 
speaker. Later that day we heard from guys in another building 
who had heard the radio program that the first three U.S. 
prisoners had been released by the Vietnamese. I felt very 
relieved and proud of myself and the others who served with me 
in the ``Fidel'' program because, although I can't say for sure 
what the original purpose of Fidel's presence was, I believe, 
the way the program was run, that its purpose was to find 
someone who could be of value to the North Vietnamese if 
released. Some found it hard to believe that ``Fidel'' expected 
us to adopt the enemy views on the war and talk about good 
treatment after we were tortured and forced to surrender; but 
after getting to know ``Fidel,'' I could see how this was his 
goal and how he believed it was possible.
    After ``Fidel'' failed in having any of his group released, 
the ``Cuba Program'' continued without any real purpose or 
meaning. Two weeks later I moved to another room with Paul 
Schultz. I rarely saw ``Fidel'' again, except on one or two 
occasions. ``Fidel'' had been working with some other men and 
it appeared that one of them, Earl Cobeil, was resisting 
``Fidel'' to the maximum. Of course, ``Fidel'' was retaliating. 
Several days after I was moved, Earl Cobeil was moved in with 
Don Waltman into the room next to mine. Waltman said Earl was 
all mixed up in his mind.
    On one occasion, one of the guards, Grimsey, came to the 
shower area and took us back to our room. ``Fidel'' was 
standing at the door. All three of us lined up. I had moved 
into this room with Waltman and Cobeil. We went to the shower, 
then we came back. So Waltman and I bowed, but Cobeil just 
stood there again. I said, ``Hey, Cobeil, bow.'' Nothing 
happened. Suddenly Grimsey raised his leg and pushed his foot 
against Cobeil's body, who went tumbling over toward the back 
of the room. ``Fidel'' yelled loudly at Cobeil to stop cheating 
him or he would teach him a lesson he would never forget. The 
door closed.
    After having seen ``Fidel'' for almost every day for six 
months, I knew that ``Fidel'' was going to get his way. He was 
not going to let the Vietnamese see him fail in any endeavor. I 
was convinced that he would take a man to any length to get 
what he wanted. In addition, the difference between the 
Vietnamese and ``Fidel'' was that more or less once the 
Vietnamese got what they wanted they let up at least for 
awhile. Not so with ``Fidel.'' There wasn't a day that went by 
that there weren't threats or warnings to all of us.
    I was in this room with Cobeil and Waltman now; and for the 
rest of the quiet hour, Waltman and I tried everything 
imaginable to get Cobeil to come down to earth, but we were 
unsuccessful. Shortly after the gong sounded ending the quiet 
hour, ``Fidel'' came to the door and told me to come outside. 
``Fidel'' asked me if Cobeil was squared away. I told him that 
in my honest opinion, Cobeil was not at all rational; if he 
continued working Cobeil over, Cobeil would never make it. I 
was hopeful that he would believe me about Cobeil.
    He accused me of trying to help Cobeil cheat him. The door 
was closed, locked, and bolted. I started to talk to Cobeil 
again for a few minutes, when all of a sudden, ``Fidel'' jumped 
up in the window, holding the bars, screaming in his loud 
voice, ``I caught you, I caught you cheating me.'' Seconds 
later the door slammed open. ``Fidel'' screamed to me, get out, 
get out. A few minutes later ``Fidel'' returned with what 
looked like a fan belt of a car, but cut so it was like a whip. 
As ``Fidel'' passed by he looked at me with a glaze in his eyes 
of an enraged madman.
    ``Fidel'' went in after Cobeil with Grimsey and Cedric. I 
could hear the thud of the belt against Cobeil's body again and 
again as ``Fidel'' screamed. I guess Cobeil was hit around 20 
or 30 times.
    It was hard to listen, as I did, to ``Fidel'' beating 
Cobeil, a frail, diminutive man, his wrists swollen three times 
the normal size, a vacant stare in his eyes already pushed by 
torture beyond the limit for which he might have a chance to 
regain his sanity. It had been far easier for me to endure the 
straps than to have to go through this.
    The guards all stood around talking loudly, laughing and 
yelling in Vietnamese. When I saw ``Fidel'' with the fan belt, 
I was surprised, because up to that time I had never heard of 
anyone getting hit like that. As I stood there with my 
crutches, my heart and mind overflowed with emotion. It was the 
most sickening feeling to hear what was going on and know there 
was nothing I could do about it.
    That was the last day I saw Cobeil. ``Fidel'' unmercifully 
beat a mentally defenseless, sick man to death. He, as well as 
the North Vietnamese Communists, must bear full responsibility 
for that and other acts.
    There have been considerable efforts to locate ``Fidel'' in 
Cuba, but without success. I have often wondered what we would 
do if we found him. Try him as a war criminal?
    No mention was ever made to try the North Vietnamese 
leaders as criminals. Thus, I question whether trying to locate 
``Fidel'' would be a wasted effort. Maybe this hearing and the 
interest shown by Congressman Gilman and Congresswoman Ros-
Lehtinen to investigate will mean some justice will be served.
    [The prepared statement of Captain Vohden appears in the 
appendix.]
    Mr. Cooksey. [Presiding.] Thank you, Captain, that was very 
moving testimony, and I appreciate your remarks.
    Mr. Benge, you are going to be the next witness. I am 
sitting in because I am going to skip this vote. To me, your 
testimony is more important than voting on the Journal. You 
will notice, as long as I am here, there is no time limit. We 
have a lot of politicians that need a time limit, but you men 
are heroes and you can testify as long as you want.

     STATEMENT OF MIKE BENGE, FORMER POW AND POW HISTORIAN

    Mr. Benge. Thank you. Mr. Chairman, Madam Chair Lady, 
Members of the Committee, fellow former POW's, our Cuban 
friends and distinguished guests. My testimony is a summary of 
a lengthy, more detailed statement that I am presenting here 
today, and also of my research report and references on the 
``Cuba Program.'' I ask that these be included in their 
entirety in the record.
    Mr. Cooksey. So ordered.
    Mr. Benge. My name is Michael Benge, and while serving as a 
civilian economic development officer in the Central Highlands 
of South Vietnam, I was captured by the North Vietnamese during 
the Tet Offensive on January 28, 1968. I was held in numerous 
camps in South Vietnam, Cambodia, Laos and North Vietnam. I was 
a POW for over five years spent 27 months in solitary 
confinement, one year in a black box, and 1 year in a cage in 
Cambodia.
    I served for over 11 years in Vietnam. I was released 
during Operation Homecoming in 1973.
    I am a board member of the National Alliance of Families 
for the Return of America's Missing Servicemen, and I am a POW 
activist; that is, I am one who is actively seeking the truth 
regarding the fate of our prisoners of war and missing in 
action.
    I was not tortured by the Cubans nor was I part of the 
``Cuba Program.'' There were 19 American POW's that I know of 
who were tortured by the Cubans in Hanoi during the Vietnam 
War. These brave men include Colonel Bomar, Captain Ray Vohden, 
and Commander Al Carpenter, who is in the audience. They named 
the torturers ``Fidel,'' ``Chico,'' and ``Pancho.'' The torture 
took place in ``The Zoo''. It was run by a Vietnamese camp 
commander call ``The Lump.'' He was called that because of the 
presence of a large fatty tumor in the middle of his forehead.
    I was not tortured by the Cubans in Vietnam, but I was 
interrogated by The Lump and a person who appeared to be a 
Latino who spoke a few words of Spanish to The Lump during my 
interrogation in the early part of 1970. Upon my return to the 
U.S., I was shown a picture taken in Cuba of The Lump, which 
was taken with an American anti war group. Yes, it was the same 
one who had interrogated me in 1970.
    I was told by a congressional investigator that he was the 
man who was in charge of funneling Soviet KGB money to the 
American anti war groups and activists, such as Jane Fonda. 
After researching my paper, this made more sense, for who would 
be better suited to liaison with the Cubans then The Lump? This 
was my first piece of the puzzle.
    I decided to research the ``Cuba Program'' after repeated 
claims by the Administration, Senators John McCain and John 
Kerry, Ambassador Pete Peterson and members of the Department 
of Defense that the Vietnamese Government was cooperating fully 
in resolving the POW/MIA issue. This is far from the truth. If 
the Vietnamese Communists were fully cooperating, as purported, 
they would have told us the true fate of the 173 U.S. 
servicemen who are still missing, who were last known to be 
alive and in the hands of North Vietnamese Communists. They 
would have helped us resolve the fate of over 600 American 
servicemen who were lost in Laos, of which over 80 percent were 
lost in areas totally under the control of the North 
Vietnamese. If the Vietnamese were fully cooperating, we would 
not be here today, for they would have revealed the names of 
the Cubans--``Fidel'', ``Chico,'' and ``Pancho''--who were 
responsible for the torture of 19 POW's, beating one so 
severely that it resulted in his death.
    Upon their return to the U.S., the POW's were told by the 
U.S. Government not to talk about the ``Cuba Program.'' Some of 
them resisted as they had resisted ``Fidel'', and they broke 
silence. Regardless, the ``Cuba Program'' was swept under the 
rug by the U.S. Government. I began researching the ``Cuba 
Program'' and had a draft paper in 1996 for presentation at the 
annual meeting of the National Alliance of Families.
    After this, former Congressman Bob Dornan held hearings on 
it, and it forced the Department of Defense's Office for POW/
MIA Affairs to do an analysis and a compilation which was 
submitted to Congress. I reassessed the information in the DPMO 
compilation and, nevertheless, from my reading the documents in 
this compilation, I found a profile. Regardless of what was 
testified, I read through these documents and I found the 
profile of a man that seemed to match almost perfectly the 
POW's description of the Cuban called ``Chico.'' However, this 
profile also partially fit the POW's characterization of 
``Fidel.'' The profile was that of Major Fernando Vecino 
Alegret.
    Last August 22nd, the Miami Herald published an article on 
the ``Cuba Program,'' based partially on my report; however, it 
was misreported that I had identified a man named Raul Valdes 
Vivo as ``Fidel.'' That was wrong. However, it produced out of 
the Cuban exile community a photograph and a report that indeed 
the man who was suspected to be ``Fidel'' was Alegret.
    Alegret is now Cuba's Minister of Education, and Fidel 
Castro has issued a denial that Alegret was ever in Vietnam. 
However, there was evidence compiled by the DIA, documented and 
the report submitted to Congress, that he was in Vietnam.
    Mr. Bob Destatte of the DPMO office made this report to 
Congress. However, he says that he was not responsible for the 
analysis of the ``Cuba Program;'' and I find it very hard, 
after reading this evidence, which was very poorly analyzed, 
that the Administration, Department of Defense, the POW/Missing 
Personnel Office have mastered the art of obfuscation.
    I grew up on a farm in the West, and I used to try to catch 
greased pigs at the county fair; and I can assure you that 
trying to pin down DPMO to truthful facts oftentimes is much 
more difficult than catching a greased pig.
    Mr. Destatte testified to DPMO's conclusions that the 
``Cuba Program'' was nothing more than a plan to provide 
instruction in basic English to the North Vietnamese army 
personnel working with American prison POW's. I have taught 
English to the Vietnamese, and I have been tortured by the 
Vietnamese, and I can tell the difference between the two. One 
might conclude from Mr. Destatte's testimony that neither he 
nor his associate, Mr. Tarabochia, knew the difference between 
torture and teaching English. I can also read English and 
understand what I read. From reading that report, it is very 
evident that the profile fits Alegret, and that perhaps they 
could take some English lessons from the Cubans.
    Mr. Destatte had the audacity to testify that the high 
command was unaware that the Cubans were torturing American 
POW's. I find this incomprehensible. I ask, how did Mr. 
Destatte reach this conclusion? He questioned a North 
Vietnamese colonel, Colonel Pham Teo, who told Destatte that he 
was in South Vietnam in 1967 and 1968 during the Cuban torture 
program. He knew nothing of the ``Cuba Program;'' however, he 
had heard rumors that it was an English language instruction 
program that had gone awry.
    Mr. Destatte testified that the Vietnamese explanation is 
fully consistent with what we know about the conduct of the 
Cubans. I find this deplorable.
    Mr. Destatte chose to believe a Vietnamese Communist 
colonel over American POW's who were tortured by the Cubans. I 
find this incomprehensible. What bewilders me, as it should 
you, is that Destatte's superiors at DPMO had the audacity to 
let him testify before Congress to this foolishness. This 
exemplifies the quality of DPMO's investigation and analysis of 
the ``Cuba Program.''
    My analysis, from what I read over and from what was very 
evident within the documentation provided by DPMO to Congress, 
was that it was a program to gain the complete submission of 
American POW's, and it was in preparation for an October 18 to 
21, 1968, Communist International Second Symposium Against 
Yankee Genocide in Vietnam, held in Cuba. This symposium was in 
continuum of the Bertrand Russell War Crimes Tribunal, a 
kangaroo court and dog-and-pony show held in Denmark the 
previous year.
    My research paper is based partially on what DPMO gave to 
Congress, as well as other documents I have obtained through 
the Freedom of Information Act. However, I just scratched the 
surface, but I have found enough documents to indicate that 
there should be a plethora of other documents related to the 
Cuban involvement in Vietnam if they were ever declassified, as 
two U.S. Presidents have decreed. I also recommend that this 
matter be thoroughly investigated by professional 
investigators, not DPMO analysts.
    I shall end this up shortly.
    The Cubans were very heavily involved in Vietnam. They 
maintained a whole section of the Ho Chi Minh Trail, where many 
American POW's were lost. I have also uncovered evidence of the 
possibility that American POW's from the Vietnam War have been 
held in Los Maristas, a secret Cuban prison run by Castro's G-2 
intelligence service. The Cubans who claimed to have seen them, 
later escaped, made it to the U.S. and were debriefed by the 
FBI. At the FBI, when I requested documents to be released, I 
got an answer of ``Give me their birthdays.''
    My paper raises more questions than it answers, but only 
history will prove me right or wrong. However, I think I am on 
the right track. Only through full disclosure will we ever know 
the truth. I was brought up with old-fashioned values. My 
mother taught me at a young age that no matter how hard you 
search for the truth, you won't find it, no matter what, unless 
you really want to.
    I end up concluding with there remarks: ignorance, 
arrogance, disinterest, lack of caring, incompetence, 
obfuscation. I rest my case.
    Mr. Cooksey. Thank you, Mr. Benge.
    [The prepared statement of Mr. Benge appears in the 
appendix.]
    Mr. Cooksey. Mr. Garcia. I understand you are a Vietnam 
veteran, but not a POW; is that correct?

 STATEMENT OF ANDRES F. GARCIA, VICE PRESIDENT, CUBAN AMERICAN 
                      VETERANS ASSOCIATION

    Mr. Garcia. I am a Vietnam veteran, sir, not a POW.
    Mr. Chairman, Members of the Committee, my testimony is a 
summary of my lengthier statement, and I would like it to be 
included in the record in its entirety.
    Mr. Cooksey. Without objection.
    Mr. Garcia. I would also like to have in the record a 
letter from the Paralyzed Veterans Association of Florida 
supporting these hearings.
    Mr. Cooksey. Without objection, it will be part of the 
permanent record.
    [The information referred to appears in the appendix.]
    Mr. Garcia. Chairman Gilman, Members of the House 
International Relations Committee, ladies and gentlemen. It is 
a privilege to participate in these hearings.
    Let me begin by thanking you and the Members of your 
Committee for your efforts to learn what happened to our POW's 
during the Cuban Program, under which 20 Americans in Cu Loc, 
the POW camp in North Vietnam, were tortured by agents of Fidel 
Castro's government, resulting in the tragic death of one of 
our POW's. My most sincere gratitude to Congresswoman Ileana 
Ros-Lehtinen for her constant defense of veterans' rights and 
for her tireless efforts in uncovering the truth of the cruelty 
of Fidel Castro, not only against his own people, but also 
against the American people whom he hates with a passion, as 
demonstrated again and again by his actions throughout his 
life.
    This time his involvement in atrocities committed against 
our servicemen cannot be left unpunished.
    For the past 40 years Castro's Ministry of the Interior has 
utilized cruel methods of torture to break down those they 
consider enemies of the revolution. These same methods were 
used against 20 defenseless POW's in North Vietnam. My voice 
today is not the voice of a single veteran, who proudly served 
with the 82nd Airborne Division in Vietnam in 1968-1969 while I 
was still a Cuban refugee, but I am speaking for those Cuban-
American men, like me, who do not have a voice today because 
they gave their lives fighting for freedom and justice with the 
U.S. Armed forces in Korea, Vietnam and Lebanon.
    What a difference between the actions of these men and the 
actions of those monsters that tortured our POW's.
    I am also speaking on behalf of a highly decorated Cuban-
born Marine who served two tours in Vietnam and was killed by 
the same terrorist state that tortured our POW's. His name is 
Armando Alejandre, Jr. On February 24, 1996, Castro's air force 
shot down two U.S. unarmed civilian aircraft, killing Armando, 
two U.S.-born youngsters of Cuban descent and a legal U.S. 
resident.
    Speaking on behalf of my organization, CAVA, we stand ready 
to work with any Federal agency that asks for our support in 
getting more information on the POW issue. With the 
communication we now have with dissidents on the island and a 
number of Castro's military residing in the U.S., it is 
possible for us to obtain much more information today than in 
past years.
    We veterans will not allow this issue to fade away. We are 
committed to inform the American people of Castro's crimes 
again our servicemen, and we will mobilize the veterans at the 
national level if necessary. I am not only a member of CAVA but 
a member of the Veterans of Foreign Wars, the American Legion 
and the Vietnam Veterans of America, and I will seek their 
support.
    Men in Congress, the press, some mayors, Governors and even 
the U.S. Chamber of Commerce believe we should be soft with 
Fidel Castro in order to change him. I propose that they ask 
Fidel Castro that, as a gesture of goodwill, he allow the 
alleged torturers to come to the United States to be questioned 
and to face their victims. If they have nothing to hide, Castro 
should cooperate.
    The fact is that nothing has changed since 1967. Fidel 
Castro continues to be the worst enemy the U.S. ever had. He is 
a dagger pointing at the U.S. underbelly. Yes, he is capable--
after having ordered the torture of POW's in Vietnam, he is 
capable of killing innocent children. He is capable of shooting 
down civilian unarmed airplanes carrying U.S. citizens. He is 
capable of using the drug trade to further undermine the U.S. 
and, yes, he is capable, willing, and able to perpetrate 
biological attack against the American people.
    He is capable, and he will continue to plan further attacks 
against the U.S. with impunity because he has always gotten 
away with anything he does.
    The time to stand firm is now. We should create a task 
force comprised of intelligence agencies to conduct a thorough 
investigation of the crimes against the POW's. But more 
important, we should indict and prosecute those found guilty, 
including Fidel Castro, who has all the responsibility.
    Every time we have taken a weak stand, we have lost. Look 
at the Bay of Pigs, Vietnam, and Iran. When we have taken a 
stand from a position of strength, we have been victorious. 
Look at Grenada, Panama, Iraq, and Kosovo. We are the strongest 
power in the world and the world respects a leader.
    The leaders of this great Nation must assume a very 
important responsibility. We pray to God that your actions will 
lead to America doing the just, the moral, the right thing, 
without giving up its political and commercial interest.
    I do not want to close my testimony without trying to take 
care of a doubt you may have in your mind. Is this another 
reckless statement by a Cuban? I am a Cuban American. My 
parents sent me to this country when I was a teenager. I paid 
my dues in Vietnam; I am no longer a refugee, but a proud 
American citizen. My children were born here.
    I love this country. I want nothing but the best for 
America. I am Cuban by birth and American by choice. I am very 
proud of both.
    Thank you for this opportunity you have given me today and 
God bless you all.
    Mr. Cooksey. Thank you.
    [The prepared statement of Mr. Garcia appears in the 
appendix.]
    Mr. Cooksey. I want to thank all of you for your testimony. 
It is very important. It is a story that needs to be out there. 
Americans need to hear it, the world needs to hear it, and your 
testimony has been good.
    I will open the questioning first with Congresswoman Ros-
Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Thank 
you for this opportunity. I would like, before I ask the 
panelists my questions, to recognize Congressman Mark Foley, 
our colleague from Florida, who has been participating in the 
briefings that we have held and is very anxious for us to move 
this investigation.
    Congressman Foley.

STATEMENT OF THE HON. MARK FOLEY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Foley. Let me thank my colleague for all of her 
leadership on this important issue.
    More appalling than the fact that Fernando Vecino Alegret 
is now a high-ranking Cuban official is the fact that he has 
been able to visit our country. Our country should not be open 
to thugs like him. This is why I introduced, with Gary Ackerman 
and Bob Franks and supported by my colleague, Ms. Ros-Lehtinen, 
the Anti-Atrocity Alien Deportation Act, H.R. 3058, which would 
make all war criminals and perpetrators of atrocities, such as 
torture, excludable from the United States of America.
    I didn't become aware of this problem of war criminals 
entering the United States until I recently learned that a key 
member of the brutal military dictatorship that ruled Haiti 
from 1991 to 1994 is now living comfortably in my congressional 
district. In fact, more bizarre, he is a winner of over $3 
million in the Florida lottery. Brutalized his countrymen, came 
to America under the auspices of the State Department, and then 
wins the lottery and lives in a guarded, gate community in Port 
St. Lucie, Florida, unlike those that he beat and brutally 
assassinated and murdered; they didn't have that luxury of 
travel to the United States.
    Initially, I just assumed it was a bizarre and isolated 
episode. However, once I began to look into the issue more, I 
realized how big a problem we have on our hands. According to 
the Center for Justice and Accountability in San Francisco, at 
least 60 alleged human rights violators are currently residing 
in the United States. These are just the ones who have been 
identified as living here; that is not even counting those who 
have been able to visit the U.S. on visas.
    In 1998, Canada began an aggressive campaign to locate and 
keep out human rights abusers who attempt to enter their 
country. As of July 1999, the Canadian Government indicated 
that 400 cases are being processed toward removal, 307 
suspected war criminals have been denied visas, 23 were 
deported. That is a total of 700 war criminals that Canada has 
detected. I applaud Canada for their pursuit of these people. I 
think it is fair to say that based on Canada's figures and 
taking into account the much bigger population in the U.S. and 
other socioeconomic factors, we could have as many as 7,000 
human rights abusers either living in or visiting the United 
States at any given time.
    We owe it to our brave veterans and refugees who have fled 
persecution abroad that they should not have to come face to 
face with their former tormentors in the Land of the Free. 
Canada has been successful in tracking down modern war 
criminals, and so can we.
    If I may ask Mr. Garcia a quick question. Obviously, we are 
aware of the visit in the past, in 1979. Are you aware of any 
other visits Mr. Alegret has made to the United States 
subsequently?
    Mr. Garcia. No, sir. I am not aware of it.
    Mr. Foley. Thank you. I appreciate my colleague yielding 
the time, and I hope the Chairman will give her some additional 
time since I took up her whole five minutes.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, for 
allowing Mr. Foley to speak. I think that the reason the 
Administration is not fully behind your bill is that then they 
would not be able to allow one of the biggest war criminals in 
the world today, Fidel Castro, entry into the United States. 
But we certainly hope that that bill passes.
    I would like to thank the panelists for excellent 
testimony. I want to ask you about the debriefing that has been 
going on and the information shared and how much you have been 
a part of that. News sources and other official and unofficial 
sources have referred to the existence of a CIA document 
published in the early 1970's which provides an assessment of 
who the Agency believes could be ``Fidel'' and ``Chico.''
    Were you, or to the best of your knowledge, were any of 
your fellow survivors of the ``Cuba Program'' ever shown this 
report, and were you debriefed by the CIA and other 
intelligence agencies?
    Last in this set, what more could have been done by these 
entities, and do you believe that with their resources that 
they should have been able to more firmly identify these 
torturers?
    Colonel Bomar.
    Colonel Bomar. I was not aware of being shown a report by 
the FBI, or whoever it was who did this, no.
    Ms. Ros-Lehtinen. Captain Vohden.
    Captain Vohden. There may have been that report, but it is 
a long time ago now. I may have been shown it, but I just don't 
recall.
    Ms. Ros-Lehtinen. In the debriefing process, sketches were 
made of the torturers; however, those varied, differing 
degrees, from one to another. What physical characteristics 
stand out about ``Fidel'' that could facilitate an 
identification?
    Some of your colleagues have identified this person 
Fernando Vecino Alegret as ``Fidel,'' or the man in the photo 
that is going to be shown to you--his name is Luis Perez Jaen--
fits the description of ``Fidel.'' What personality traits 
would you attribute to ``Fidel'' and the others?
    Colonel Bomar.
    Colonel Bomar. Jaen, I would not recognize this as 
``Fidel'' at all, no. My comment was, ``was it taken from 
30,000 feet over Cuba?'' However, this photograph is the same 
as that one. I was shown this, or sent this, by Colonel 
Hubbard, this picture. My reaction was, it could have been, or 
maybe it couldn't have been. I wasn't 100 percent sure that 
this picture--I think probably because, is he 20 years old 
here? This is a long time before we met him, and he matured a 
lot.
    However, there was another picture, Ray.
    Captain Vohden. I don't know. Maybe that. That's all I 
have.
    Colonel Bomar. There was another one that he could very 
possibly have been. That was the closest that I have seen, but 
I don't have it right here. I think she showed it to me 
earlier.
    Yes, this picture right here. This would have been as close 
as I have seen, right here. This man right here. That could be 
him, but I am not 100 percent sure.
    Mr. Rohrabacher. For the record, could you tell us who it 
is that you are talking about?
    Ms. Ros-Lehtinen. That would be Fernando.
    Colonel Bomar. The man in the center in this photograph.
    Ms. Ros-Lehtinen. That was given to us by people close to 
Fernando Vecino Alegret. These are photos taken in Cuba, family 
photographs and social events that he attended.
    Colonel Bomar. Very young in this picture.
    Ms. Ros-Lehtinen. He is pointing to a photograph of a 
social occasion that took place in Cuba where he seems to share 
those characteristics.
    Now, getting back to my other question, unless Captain 
Vohden wants to weigh in on this----
    Captain Vohden. I don't recognize this man as ``Fidel'' at 
all. The other pictures, in one picture here there is a shirt 
that he is wearing that is almost identical to the shirt that 
he wore when I first met him. I don't know what you call that 
shirt.
    Identifying features of ``Fidel'': First, he was 
exceptionally tall for a Cuban; he is probably 6'2'', 6'2-1/
2'', or something like that, which I think is unusual. He also 
spoke excellent English and he was very knowledgeable about the 
United States. So that would indicate he would have to have 
spent some time here in the United States. I had an impression 
that he was kind of comparable to Li'l Abner sometimes. He was 
a big, husky, robust sort of a man.
    But so far as the pictures are concerned, they could be. 
This is probably as close as I have seen. I have seen the 
picture of Alegret when he was older, but that is not at all 
possible. But this here, it could be. That is all I know.
    Ms. Ros-Lehtinen. After the initial debriefings, were you 
ever approached again about new information, new sketches, new 
photographs, on the torturers; and if so, by whom and what was 
the result of these followups?
    Colonel Bomar. No, I never was. We did some initial 
sketches then. That was the last I heard of it. It was over.
    Ms. Ros-Lehtinen. Is that true for you?
    Captain Vohden. I saw sketches initially and there was a 
time, maybe eight or ten years ago, the FBI came to my house 
and asked if I would look at some pictures; and for about three 
days, I thumbed through photo albums and I never found a 
picture of ``Fidel.'' Also, there was staff from a Senate 
Committee, a number of years back, who talked to me on a few 
occasions.
    Ms. Ros-Lehtinen. When visiting delegations were allowed 
directly into the camp, were you taken outside to meet them? Do 
you recall seeing any outsiders in the camp? By ``outsiders,'' 
I mean Vietnamese officials or non-Vietnamese officials, not 
stationed at the camp and folks from other countries, 
journalists, any visits that we could use to locate the 
participants in an attempt to gain information about the 
torturers and who they were?
    How closed was ``The Zoo'' to others?
    Colonel Bomar. I believe I saw some Chinese in the camp. 
Obviously there were some Russians, but we never spoke with 
them. But other than one man that was working on some 
electrical box, the squawk box in our room--he was definitely a 
friend of ``Fidel.''
    Ms. Ros-Lehtinen. Now you had said in your testimony that 
``Fidel'' had had a position of authority in the camp based on 
where he was sitting, where he was standing. That would seem to 
indicate that the Vietnamese certainly knew who this individual 
and the others were. Do you believe that they could give us 
information to further clarify the identity?
    Colonel Bomar. I don't think there is any doubt in any mind 
that the North Vietnamese knew exactly who this was. He came to 
the camp in a staff car, a Russian car, driven by a Vietnamese 
officer. We had never seen that before. That is how he 
traveled.
    He did not live in this camp. He came from off-camp 
somewhere. He came quite often, and it was always in a staff 
car. The camp commander, ``Lump,'' rode a bicycle. That was the 
best they got; going up, there was the bicycle.
    But he rode around in a chauffeured staff car, so he was 
not an ordinary visitor to the camp.
    Ms. Ros-Lehtinen. Just one last question, if I may. I know 
my time is up, Mr. Chairman.
    What more do you think can be done by our agencies to get 
to the identities of these three torturers?
    Captain Vohden. One thing, just for starters, they should 
try to get a picture of this Alegret now, or try to get 
something from 1968 somewhere around that period of time. That 
would be very helpful to really identify and nail him.
    Ms. Ros-Lehtinen. Colonel?
    Colonel Bomar. I would give Ambassador Pete Peterson a call 
and say, hey, ask the Vietnamese who this guy is, who he was. 
Maybe we will turn the aide back on if you tell us. I would put 
pressure on our Ambassador up there to put pressure on the 
Vietnamese, and I think Peterson could do that.
    Ms. Ros-Lehtinen. Thank you, gentlemen. Thank you for your 
excellent testimony. We will have some other followup questions 
for you at a later date.
    Thank you, Mr. Chairman.
    Mr. Cooksey. Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Colonel Bomar, is it ``Fidel'' who had his own car? Is that 
who we are talking about, the man who is responsible for 
torturing you American prisoners, and he had his own car that 
he was driven around in?
    Colonel Bomar. Yes.
    Mr. Rohrabacher. Do you believe that if he was simply an 
English teacher he would have had his own car?
    Colonel Bomar. That is really hard to believe. No, I never 
did believe that.
    Mr. Rohrabacher. So anyone who is suggesting that this 
program with the Cubans was simply a program to teach English 
is ignoring facts, like the fact that ``Fidel'' was being 
driven around in his own staff car, correct?
    Colonel Bomar. Yes.
    Mr. Rohrabacher. It would have to be either an intentional 
ignoring of facts like that, or we are talking about a total 
idiot.
    Colonel Bomar. Yes, I agree.
    Mr. Rohrabacher. I want to make this very clear. Because 
this information that he had his own staff car isn't just 
something, you know; it has to be known by other people as 
well, right, especially people who might have been looking into 
this issue?
    Colonel Bomar. Yes.
    Mr. Rohrabacher. Do you think that as you just testified, 
the Vietnamese, of course, would have to know the name of the 
fellow that they issued the car to, right?
    Colonel Bomar. Absolutely.
    Mr. Rohrabacher. So the relationship between the Vietnamese 
and these Cubans that you are describing was not a relationship 
where someone was simply there teaching them English, but it 
seemed like they were actually in a position of authority; was 
that not true?
    Colonel Bomar. Yes.
    Captain Vohden. He was a high-ranking official from 
somewhere, and the Vietnamese gave him a lot of power to do 
what he did. He ran that whole show by himself. Because the 
Vietnamese knew what he did to Cobeil, and they just let him go 
ahead and do it. So this guy really had to have a lot of power 
to be able to do that, because I don't think the Vietnamese 
liked what happened to Cobeil.
    Mr. Rohrabacher. Let's just say, for the record, having 
been in Vietnam several times since the war and once during the 
war, let me note that the Vietnamese are claiming that all the 
reports from every one of the prison camps have just vanished, 
disappeared. They were destroyed at the end of the war, B-52 
raids, and everything like that. That is an incredulous answer 
to those of us asking for those records.
    Colonel Bomar. They kept very minute notes when you were 
being interrogated. I am sure they have records of every 
possible thing that happened up there.
    Mr. Rohrabacher. They would certainly keep the records of 
the person that they issued the car to, right? I mean, this is 
not like the camp commander riding on a bicycle, right?
    So let us note that the people supposedly representing our 
government are telling us that they are letting the Vietnamese 
off the hook on those records. I am going to ask today--we will 
ask and find out whether or not they have insisted on the name 
of this English teacher, ``Fidel,'' from the Vietnamese. If 
they are not pushing the Vietnamese on this, why are they not 
pushing to get these things from the Vietnamese? Why are they 
offering these excuses for the Vietnamese?
    Would any of you like to add to that?
    Captain Vohden. For one thing, there was this guy called 
``The Rabbit.'' He was probably the most well-known 
interrogation officer up in Vietnam. I have seen ``Rabbit'' 
talking to ``Fidel,'' so there is no doubt in my mind 
whatsoever that they know. They would have to go to ``Rabbit'' 
and ask ``Rabbit'' what his name was. I am sure ``Rabbit'' 
wouldn't say.
    Mr. Benge. I might also end up suggesting that they ask 
``The Lump,'' and there are DIA reports of ``The Lump's'' 
presence that should have his name in Cuba.
    There are also congressional reports.
    Mr. Rohrabacher. So we should be pushing----
    Mr. Benge. That would seem be the first person to ask.
    Mr. Rohrabacher. Ask about that particular person ``The 
Lump''--they should find him in order to ask about the names of 
these torturers. We will try to find out whether or not those 
people, supposedly representing our interest and supposedly 
representing the U.S. Government, have actually fulfilled that 
responsibility in a competent manner. You can count on that.
    Mr. Garcia, you mentioned something previously--I read 
something by you where you said that during the war, you were 
in Central Highlands and that someone had said something about 
your not using your name, because there were other Cubans 
around but were on the other side; is that correct?
    Mr. Garcia. No, that is the testimony of one of the members 
of our organization. His name is Leonardo Viota-Sesin, and he 
was in a fire base close to the Cambodia border. There was an 
American officer in charge of the base, and they had 
Montagnards working on that base. When he came to the base, the 
officer asked him where was he from; he said that he was Cuban, 
and he took him aside. He said, don't ever mention on this base 
that you are a Cuban, or they will kill you. When he asked why, 
the officer pointed out toward Cambodia and said, there is a 
brigade of North Vietnamese on the other side of the border. 
They have a group of Cubans who take care of all the 
interrogation, and many of the Montagnards have died over 
there.
    Mr. Rohrabacher. So there was evidence that the Cubans are 
not only in North Vietnam interrogating prisoners, but outside 
of Vietnam. Perhaps in South Vietnam there are some 
intelligence reports that have been privy to that, that 
indicate that as well.
    During the war I was not in the military, but I spent a 
little time in the Central Highlands with the Montagnards and 
found them to be very brave people. The word would have gotten 
around--these people had their whispering networks--if there 
was a Cuban person torturing them on the other side of the 
border.
    I don't think I have any more time, but did you have 
something you wanted to add?
    Mr. Benge. Yes. There was Raul Valdes Vivo, who was 
assigned to COSVN headquarters in South Vietnam. There was a 
Cuban contingent at the COSVN headquarters, which was the North 
Vietnamese headquarters for South Vietnamese operations in 
Cambodia. Ironically, he was placed there by ``Fidel's'' 
brother, at the insistence of ``Fidel's'' brother, and the 
Cuban also was on the front tank.
    When the North Vietnamese overran the palace in Saigon, the 
Cuban contingent had prestige enough with the North Vietnamese, 
that they were on the first tanks going into the palace. They 
had an engineering brigade that had maintained a good portion 
of the Ho Chi Minh Trail there.
    Mr. Rohrabacher. Thank you very much.
    Let us just note, finally, you expected the fanatic 
Communists under Fidel Castro to have done what you are talking 
about because they considered that as being their job. You have 
to consider the Vietnamese did that, because they were doing 
their job. What we have to find out is why our government isn't 
doing its job in protecting the interest of our people and 
getting the word out to the people of the United States. It is 
either incompetence or worse.
    I appreciate you putting these words on the record. This is 
information we need to talk about and call our government to 
task for not following up on information they knew about, but 
the rest of us didn't. Thank you.
    Mr. Cooksey. Mr. Chabot.
    Mr. Chabot. Thank you. I can't tell you how much respect I 
have, and I think every Member of the Committee has, for you 
gentlemen for putting your lives on the line and having to go 
through this terrible torture. It is almost incomprehensible 
that one human being can carry out this type of barbarity on 
another human being.
    I think it is embarrassing that our government hasn't done 
more to bring to justice these criminals, these people that 
visited this horror on you. This is something that should not 
be swept under the rug. This is something that we ought to use 
the full powers of this government to get to the bottom of and 
to bring these people to justice.
    I know we have another panel here, so I will not take up 
all my time. The only question I would have is, if we could 
actually determine who these people are--I hate to even use the 
term people for those who did this to the U.S. Air Force pilot 
and the rest of you--what do you think would be appropriate if 
we could bring these people to justice at this time for what 
they have done?
    Captain Vohden. You say, what would be ``appropriate?''
    Mr. Chabot. Yes. What do you think? If our government could 
bring these people to justice, what do you think would be the 
appropriate punishment at this point, these many years later? 
What do you think we should do?
    Captain Vohden. What are they doing with Pinochet right 
now, I would say. What they are doing with Pinochet at a 
minimum and try him. If he is found guilty, hang him.
    Mr. Chabot. Colonel Bomar, I heard your testimony before, 
so I was wondering if you had any feelings with respect to 
that.
    Colonel Bomar. Yes, I think he should be tried and brought 
to task for what he did there. He is a murderer, and we have 
laws that govern this.
    Mr. Chabot. Thank you very much, and we appreciate your 
testimony here today. Hopefully, as I say, this will not be 
swept under the rug.
    Mr. Cooksey. Mrs. Ros-Lehtinen, did you have another 
question?
    Ms. Ros-Lehtinen. Thank you. I just had one more question, 
if I might. Thank you, Mr. Chairman.
    Captain, you had testified today that you believe that the 
purpose of the ``Cuba Program'' was to prepare POW's for 
release. I have a question about the reasons that you all 
thought this heinous program was under way.
    It has also been said that this was part of a propaganda 
campaign. Others said that it was a psychological experiment 
linked to the university at Hanoi, and still others say that it 
was used as a method to test interrogation techniques.
    Could it have been a combination of all of these? Please 
elaborate, if you might, on what you believe to have been the 
role of these torturers; why bring these three in, rather than 
Vietnamese interrogators; and why did the Vietnamese allow them 
such access to our U.S. pilots.
    Captain Vohden. I think they wanted to release some 
prisoners about the time this program started. I think this 
``surrender'' program was like, you have a child; you want the 
child to do something, and you spank that kid to make him do 
what you want him to do.
    There may have been some guys in the program who 
surrendered without being tortured, but they wanted you to 
surrender. So, after we all had surrendered, we started to get 
a few extra cigarettes a day. He brought us tea in the morning. 
We got a chess set. He gave me a cigar to smoke. He gave us 
these extra-special things to make us feel good. Then he 
started moving more and more guys into the room. So that, if we 
were released, we could say, yeah, we were with a bunch of 
guys?
    Another thing he did, he forced us to carve things, little 
wooden toys and things like this. This would be used to show 
our remorse, and we could give these to the Vietnamese people. 
Everything to make us look good if we were released.
    Another thing we did, we built a fish pond; we dug a big 
hole, and they put fish in it to help the Vietnamese people.
    Then that last day when the announcement came that the 
POW's were going to be released, they came down and cut our 
wires so we couldn't hear it. So I think all these reasons 
indicate to me that it was a release program.
    Ms. Ros-Lehtinen. Colonel?
    Colonel Bomar. I agree that we were there for more than 
Vietnamese propaganda. It was a bigger thing to me, as I 
stated, whether it was the Tet Offensive or whether it was this 
meeting in Havana. There was more to this ``Fidel'' program.
    But I think it was also, as you said, it could have been 
techniques that they could use to break Americans or prisoners. 
You listed several reasons, and every one seemed to fit. They 
could all have been, but I think release may have been a 
possibility, although I don't think they would have released 
me.
    Captain Vohden. Could I add something?
    I think they were just looking for someone in the group who 
potentially might be released.
    Another thing, when we had quizzes, ``Fidel'' talked about 
the war and about going home all the time. He showed us 
pictures of fashion models in Magazines. He talked about our 
wives and families. We saw articles in Time and Newsweek 
magazine. He tried every argument in the book to convince us 
that the U.S. war was wrong. He did a lot of these things. 
Again, this helped me to form my opinion.
    Mr. Benge. In my research report, there is a copy of an FBI 
report that gives the name of a Cuban gentleman who went to 
Hanoi and coincides with the exact time that the ``Cuba 
Program'' stopped. It coincides with the exact time that the 
outside Cuban showed up at the camp and the program was shut 
down, and in that FBI report it says that this man was going to 
gather this information for this second symposium on war crimes 
trials. It is a very interesting, interesting piece, and it 
fits exactly right with the timing that the program was shut 
down.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. I would 
ask that Chairman Gilman's letter, dated November 1st, to Louis 
Freeh, the Director of the FBI, be made a part of our record, 
indicating that he would like the FBI's cooperation, especially 
as it relates to the new partners that we have in Eastern 
Europe and the new Soviet Republics and elsewhere, former 
Communist regimes that are now moving further toward democracy, 
who have opened up many of their records. We would like for the 
FBI to work with our new allies to look at those files and ask 
the individuals there for help in discovering who these three 
torturers were and identifying them. I ask that it be made a 
part of the record.
    [The information referred to appears in the appendix.]
    Mr. Cooksey. Without objection.
    Again, you have been excellent witnesses, and again, this 
is a story that needs to be told.
    Today we find time to investigate the war criminals that 
have committed similar crimes in the Balkans just in very 
recent history and very recent memory. But this world also has 
time to investigate the people that committed war crimes in 
World War II. Stalin, he probably killed more people than 
anyone else, also Hitler and his henchmen. Vietnam is recent 
memory for those of us that were in the military at the time. 
This is something that should be pursued, too, no matter what 
the politics of it is.
    I think that it is interesting to observe who is here today 
and who is not here today at this hearing. I know that two of 
you were on active duty in the military at the time. You were 
Cold War warriors in what was probably the Third World War, and 
you did win ultimately that war by standing up to this 
Communist threat. Those records that my colleague just referred 
to are out there; they are out there in some recent 
publications.
    But, going back to the time that we were all in the 
military--Air Force, Navy, Army, whatever--we had incompetent 
leadership in the executive branch of government at that time. 
According to David Halberstam's book, ``The Best and the 
Brightest,'' the people that were in Johnson's Cabinet were 
incompetent as well and were responsible for some real dumb 
things that were done in fighting the air war in Vietnam. If 
you want to get a good look at that period, I would encourage 
you to read a book, ``The Tragedy of the Soviet Period,'' 
written by Martin Malia. It was written by a UC-Berkeley 
professor. I know you made a comment about a UC-Berkeley 
professor, but this is a book I would encourage you to read.
    There is another book, ``The Black Book of Communism.'' 
Where you can go back and find out what really went on. These 
records are available.
    Again, I want to thank you for coming, for being here 
today. I feel very strongly that this should be pursued. Again, 
you have been excellent witnesses. We will move on to the next 
panel. Thank you very much.
    Mr. Cooksey. Our second panel is made up of two individuals 
who are former military officers, former United States Army 
officers, and they are now at the Department of Defense. The 
first is Mr. Robert Jones, who has served as the Deputy 
Assistant Secretary of Defense for Prisoner of War-Missing 
Personnel Affairs since May 1998. Mr. Jones is a decorated two-
tour Vietnam combat veteran; he is also a disabled veteran. 
Previously, Mr. Jones was a Special Assistant to the Assistant 
Secretary for Public and Intergovernmental Affairs in the 
Department of Veterans Affairs.
    Mr. Robert Destatte is a Technical Adviser to the Deputy 
Assistant Secretary. Mr. Destatte is the Chief Analyst of the 
Department of Defense POW/Missing Personnel Office.
    So we are delighted to have you here. I feel that you both 
can speak with some authority because you are both veterans, 
Vietnam veterans, and have a major responsibility for looking 
into this matter.
    Mr. Cooksey. We will open with you, Mr. Jones.

  STATEMENT OF ROBERT L. JONES, DEPUTY ASSISTANT SECRETARY OF 
       DEFENSE, PRISONER OF WAR-MISSING PERSONNEL AFFAIRS

    Mr. Jones. Thank you. I welcome today's opportunity to 
address the Committee on the roles my office and the former 
Defense Intelligence Agency's Special Office on POW/MIA Affairs 
have had in the ``Cuba Program,'' a program whose brutal 
purpose still remains unresolved.
    I ask that my statement in its entirety be entered into the 
record after this hearing.
    Mr. Cooksey. Without objection.
    Mr. Jones. Mr. Chairman, DOD became aware of the ``Cuba 
Program'' immediately following Operation Homecoming, and we 
have shared our knowledge with the appropriate agencies and the 
Congress beginning as early as July, 1973. We have appeared 
before in congressional hearings on this subject in 1987 and 
again in 1996.
    Mr. Chairman, I truly am humbled to follow this group of 
former POW's who have addressed the Committee here this 
morning. None of us can fully understand the trying experiences 
and inhumane treatment that they endured while they were in 
captivity. These men sacrificed greatly for this Nation. They 
are truly American heroes whose sacrifices stretch the limits 
of one's imagination. Those who endured the abuses of the 
``Cuba Program'' suffered dearly and are examples of those 
whose sense of duty and commitment to our Nation was tested to 
the limits of their human endurance. Thankfully, all of those 
who were involved in this brutal activity have been accounted 
for and returned to the United States.
    The mission of my agency is to account for those American 
heroes who were lost while serving in foreign lands and have 
not returned to American soil. Currently, there are 2,047 
Americans who remain unaccounted for in Southeast Asia. My 
office pursues the resolution of those cases by using a number 
of investigative tools. We have received more than 21,000 
reports possibly pertaining to Americans in Southeast Asia. 
Unfortunately, none of those have led us to the return of a 
single live American.
    We have a robust archival research and oral history 
program, as well as unilateral and trilateral investigations in 
each of the three Southeast Asian countries. These methods 
have, in fact, produced significant investigative leads that 
have led to a number of resolved cases. To date, we have 
accounted for 536 missing Americans. We continue to pursue all 
avenues with live Americans as our No. 1 priority.
    As my staff explained in their separate briefing to 
Representative Ros-Lehtinen, our ability to accomplish this 
humanitarian mission is wholly dependent on the willingness of 
foreign governments around the globe to allow American POW/MIA 
specialists access to their territory, their citizens and their 
historical records. I firmly believe that any attempt on the 
part of the Department of Defense to merge investigations of 
war crimes into our accounting activities may jeopardize our 
ability to accomplish our humanitarian mission.
    DPMO is not a criminal investigative arm of the Federal 
Government. Our mission is separate. We are charged with the 
fullest possible accounting for U.S. military and certain 
American civilian personnel who become missing as a result of 
hostile action. Our mission is humanitarian in nature, not 
linked to other bilateral foreign policy concerns.
    DPMO's role with regard to the ``Cuba Program'' has been to 
act as a repository of historical information to ensure it is 
available to the appropriate Federal agencies. The 
sensitivities associated with our humanitarian accounting 
mission clearly prohibit us from any involvement in the pursuit 
of the perpetrators of these misdeeds.
    Based upon recent congressional inquiries, I directed a 
complete historical file review and requested other Federal 
agencies to provide us with information they may have related 
to this issue. This is being done to ensure that my office has 
a comprehensive record of the ``Cuba Program'' as a historical 
file.
    I was informed on October 29th that Ambassador Peterson has 
met with Mr. Hung, Director of the Americas Department of the 
Ministry of Foreign Affairs, to request the assistance of the 
Government of Vietnam in supplying information about the Cuban 
interrogators of American POW's from 1967 to 1968. Mr. Hung 
listened with interest and responded that he would research the 
questions presented in the talking points that the Ambassador 
left with him. I believe we all look forward to the responses 
to those questions.
    I personally will be in Southeast Asia during the period of 
November 29th through the 11th of December, traveling 
throughout Southeast Asia, to include Vietnam. Rest assured I 
will discuss this program with Ambassador Peterson upon my 
arrival in Hanoi.
    Mr. Chairman, I share the same sense of outrage that you 
and the Members of the Committee do regarding the torturous 
abuse endured by our prisoners of war at the hands of these 
presumed Cuban interrogators. I believe that the pursuit of 
these criminals by my agency has a real potential to disrupt 
our mission to return our men, or their remains, to their 
families, many of whom have waited for more than 50 years. I do 
not recommend my office taking such action when it has the 
potential to jeopardize the hopes of the families of our 
missing.
    I do believe with all my heart that these men should be 
tracked down, brought to justice by the appropriate agency. I 
recommend that requests for further investigation of the ``Cuba 
Program'' be directed to the appropriate agencies that are 
chartered to pursue violations of the law of armed conflict. 
DPMO stands equally ready to continue to provide information to 
an interagency group as required. We will continue our policy 
of transparency, making available our historical files and 
knowledge on this issue.
    I clearly support the goals for this hearing as stated by 
Representative Ros-Lehtinen. I will also say that I will be in 
Moscow next week. Rest assured that I will raise this ``Cuba 
Program'' with my Moscow counterpart.
    Mr. Chairman, in closing, I would like to introduce a 
Member of my staff, Mr. Bob Destatte, a senior Southeast Asia 
analyst, a man who I respect very highly for his knowledge of 
Southeast Asia. I believe Mr. Destatte can address any 
technical questions you or the Committee may have.
    Thank you. This concludes my remarks.
    Chairman Gilman. [Presiding.] Thank you, Mr. Secretary.
    [The prepared statement of Mr. Jones appears in the 
appendix.]
    Chairman Gilman. Mr. Destatte, if you wish you may put your 
full statement in the record or you may summarize, whichever 
you may deem appropriate.

 STATEMENT OF ROBERT DESTATTE, CHIEF ANALYST, PRISONER OF WAR-
        MISSING PERSONNEL OFFICE, DEPARTMENT OF DEFENSE

    Mr. Destatte. Thank you, Mr. Chairman. Good morning, 
Chairman Gilman, and distinguished Committee Members. I have a 
short statement. I would like to read it and I would like to 
ask that the statement be entered into the record in its 
entirety.
    Chairman Gilman. Without objection, the full statement will 
be made part of the record.
    Mr. Destatte. First, let me join Deputy Assistant Secretary 
of Defense Jones in saluting the American heroes who shared 
with this Committee this morning their experiences as victims 
of what has become known as the ``Cuba Program.'' One of those 
gentleman, Captain Ray Vohden, and I worked together for a 
while in the Pentagon, when I first joined this issue. Let me 
begin.
    Chairman Gilman. Put the mike a little closer, Mr. 
Destatte. Thank you.
    Mr. Destatte. I would like to begin with a brief 
description of the ``Cuba Program'' on the basis of what is in 
the written record, which I believe will complement the 
personal accounts that we received earlier this morning.
    The American POW's coined the term ``Cuba Program'' to 
describe a program in which a small team of Caucasian 
interrogators brutally beat and tortured 19 American aviators 
in a camp that our POW's nicknamed ``The Zoo'' in Hanoi, 
between July 1967 and August 1968. One of those POW's, as we 
heard earlier today, U.S. Air Force Major Earl Cobeil, 
eventually died from those beatings.
    The Caucasian interrogators spoke English fluently, but 
with a Spanish accent. They spoke knowledgeably about Central 
America and the United States. In an exchange with one of our 
POW's, a Vietnamese guard referred to the Caucasian 
interrogators as Cubans. These and other factors led many of 
the POW's and analysts, including myself, to believe that the 
interrogators were Cubans, possibly Cubans who had lived in the 
United States.
    The POW's nicknamed the chief Caucasian interrogator 
``Fidel.'' They nicknamed his principal assistant ``Chico.'' 
several days before the program ended, a third man the POW's 
nicknamed variously ``Pancho'' and ``Garcia'' appeared to 
replace ``Fidel.'' The POW's, as we heard earlier, observed 
another man who might have been Cuban working as an electrical 
technician in the POW camp during the closing months of the 
program. They also heard the voice of a woman they believed was 
Cuban on the camp radio for about two weeks near the end of the 
program.
    The DOD first learned about the ``Cuba Program'' in March, 
1973 when the reports of the first post-homecoming debriefings 
began arriving in the Defense Intelligence Agency's Prisoner of 
War/Missing in Action Office. By March 1973, nearly two weeks 
before the last POW was released, the DIA's POW/MIA Office had 
brought this issue to the attention of senior Department of 
Defense officials; and by the 23rd of March, the U.S. 
Government had established a coordinated effort to learn the 
identity of the Cubans. That effort involved the Defense 
Intelligence Agency, each of the armed services, the National 
Security Agency, the Federal Bureau of Investigation, the 
Central Intelligence Agency, and the Senate Internal Security 
Subcommittee's chief investigator, among others.
    In April, 1974, a little over a year later, the CIA 
informed the DIA that CIA analysts had tentatively identified 
the interrogator, nicknamed ``Fidel,'' as one Luis Perez, also 
known as Luis Perez Jaen, a captain in the Cuban Ministry of 
Interior. This captain was in Hanoi during the ``Cuba 
Program'', had a history of interrogating foreigners in Cuba, 
and was in the U.S. during 1956 and 1957, buying and shipping 
arms to Cuba; and he possessed most of the physical and 
personality traits of ``Fidel'' that our POW's had described.
    The CIA provided DIA a copy of a photograph of Luis Perez 
Jaen that was published in the Cuban newspaper, Oriente, on 25 
February 1959. The photograph, which we have shared with the 
Committee, depicts Perez Jaen wearing a military cap and a full 
beard.
    Between November, 1975 and mid-1976, U.S. Air Force 
investigators asked seven victims of the ``Cuba Program'' to 
examine this photograph of Luis Perez Jaen. Six of these men 
could not state positively that he was the interrogator they 
nicknamed ``Fidel,'' primarily because the photograph depicts 
him wearing a full beard. One of the seven, Colonel Donald 
Waltman, wrote in a 1976 note to a U.S. Air Force investigator, 
quote, ``I say, yes, that is 'Fidel', or at least a guy who 
looks too much like him. I have to try to imagine him clean 
shaven, and when I do, it is him. Maybe because I would like to 
ID him so damn bad. It is the most look-alike 'Fidel' picture I 
have seen,'' end quote.
    Also in April, 1974, the CIA informed the DIA that 
``Chico'' might be a Cuban named Veiga, whose first name they 
did not know, an employee of the Cuban Department of State 
Security. Reportedly, Veiga had studied at Tulane University in 
New Orleans, Louisiana, in 1958 and 1959. An extensive followup 
investigation by U.S. Air Force investigators failed to confirm 
the identity of this person. Other names have been suggested 
over the years; however, subsequent investigations either ruled 
them out or proved inconclusive.
    For example, the DIA POW/MIA Office provided historical 
information about the ``Cuba Program'' to the FBI when it 
investigated a 1987 report that a Cuban employee of the United 
Nations might be one of the Cuban interrogators. The FBI worked 
closely with returned POW's in that investigation.
    Captain Vohden described the three days he spent going over 
photos associated with that investigation. However, the POW's 
could not positively identify the Cuban at the United Nations 
as one of the men who tortured them in Hanoi.
    Recent news stories suggest that the Cuban Minister of 
Education, Fernando Vecino Alegret, is the interrogator our 
POW's nicknamed ``Fidel.'' Fernando Vecino Alegret first came 
to our attention shortly before he visited the United States in 
November, 1978. At that time, Federal law enforcement and 
intelligence agencies examined the possibility that he was the 
interrogator named ``Fidel.'' We have been searching our 
historical files for any record we might have received from 
those agencies concerning this man. Two days ago, we discovered 
a still-classified September, 1973 report that described 
Fernando Vecino Alegret as an engineering graduate, who studied 
at the University of Havana during 1962-65. The report also 
stated that he founded the Cuban Military Technical Institute 
in September 1966 and that he was its Director from September, 
1966 until January, 1973.
    We have not yet had time to confirm the origin and 
reliability of that report. However, if the information in the 
report is accurate, there is little chance that Fernando Vecino 
Alegret could be the interrogator ``Fidel.''
    Among the names we have received, the two names the CIA 
suggested in 1974 remain the most likely candidates for the 
interrogators named ``Fidel'' and ``Chico,'' but I should 
emphasize we do not know who he is.
    The only information we have concerning the purpose of the 
``Cuba Program'' comes from the American POW's who were victims 
and two Vietnamese military officers. The preponderance of 
information in our files, most of it coming from the returnees 
themselves, suggests that the ``Cuba Program'' was a Cuban 
assistance program that went awry, and that the Vietnamese 
terminated the program shortly after the interrogator named 
``Fidel'' beat Major Cobeil into a near-catatonic state from 
which he never recovered.
    The Department of Defense has kept the Congress informed 
about the ``Cuba Program'' from the very beginning. For 
example, the DPMO's predecessor office, the Defense 
Intelligence Agency's Special Office for Prisoners of War/
Missing in Action Affairs, presented testimony about the ``Cuba 
Program'' to the Senate Internal Security Subcommittee during 
hearings on 2 July 1973, about three months after the last 
American POW was released. A former POW who was a victim of the 
program, U.S. Navy Lieutenant Commander Larry Spencer, also 
testified before the Subcommittee.
    Later, the DIA POW/MIA Office provided historical 
information to the Subcommittee's chief investigator, Mr. 
Alfonso L. Tarabochia, who conducted an independent effort to 
identify the interrogators. I believe Captain Vohden also made 
reference to that investigation. By September, 1974, Mr. 
Tarabochia had tentatively concluded that ``Fidel'' was a Cuban 
named Pedro Fumero. Unfortunately, the returned POW's who were 
victims of ``Fidel'' could not identify Fumero as one of their 
interrogators.
    The DPMO's DIA predecessor office also provided an 
appraisal to the House Armed Services Committee on 6 October, 
1977. More recently, the DPMO provided updates on the ``Cuba 
Program'' to Congressman Dornan in March, 1987, August, 1996, 
and 11 and 17 September, 1996.
    The story about the ``Cuba Program'' is not new. For 
example, I have with me eight news articles about the ``Cuba 
Program'' published in 1973, 1977, and 1981 in Washington, 
D.C., New York, Baltimore, Denver, and Des Moines. These 
articles are based on information released by DPMO's 
predecessor, the DIA's POW/MIA Office, and personal accounts by 
POW's who were victims of the program.
    I would like to comment briefly for the public record about 
recent press reports about the ``Cuba Program.'' News reports 
published in the Miami Herald on 22 August, 1999, and the 
Seattle Times on 28 October 1999, suggested that this issue 
was, ``concealed for decades by official U.S. secrecy'' and, 
``the full story of Fidel and the so-called `Cuba Program' is 
finally becoming public,''. The same article speculated that 
the reason the story has drawn little attention is, ``perhaps 
because most POW's obeyed Pentagon orders to keep quiet to 
protect POW's who might remain in Vietnam and perhaps because 
'Fidel's' identification as a Cuban was then only an 
unconfirmed allegation by the POW's.''
    The facts are that the Department of Defense officials 
asked the POW's who were returning during Operation Homecoming 
in 1973 not to speak out publicly about the torture until after 
the last POW was released. The last POW was released on 1 April 
1973; the first stories by returning POW's about the ``Cuba 
Program'' appeared in American newspapers the next day, on 2 
April, 1973.
    Some of the sources cited in these articles portrayed 
DPMO's role incorrectly. As Mr. Jones stated, we are not a 
counterintelligence office or a law enforcement office. Our 
mission is humanitarian. It is to account for American 
servicemen who were lost while serving abroad. All American 
victims of the ``Cuba Program'' are accounted for.
    Successive administrations, the Congress, the Department of 
State, the Defense Intelligence Agency, the Defense Prisoner of 
War/Missing Personnel Office, the Pacific Command's Joint Task 
Force, the U.S. Army Central Identifications Laboratory, the 
National League of Families--literally thousands of Americans 
have worked hard for many years to build and sustain programs 
that today are allowing us to account for Americans lost in the 
old Soviet Union, in North Korea, in Southeast Asia, and many 
other areas in the world.
    As Secretary Jones stated earlier, our mission is 
humanitarian, and it is worldwide. Our ability to accomplish 
our mission is wholly dependent on the willingness of foreign 
governments to allow our POW/MIA specialists to have access to 
their citizens, their records, and their territory. Suggestions 
that DPMO should investigate war crimes risks undoing the 
results of years of hard work and would jeopardize our ability 
to accomplish our humanitarian mission.
    Now, having said that, DPMO is a central repository for 
historical information concerning the American POW/MIA issue. 
As Secretary Jones stated earlier, DPMO stands ready to share 
historical information and knowledge about the program with 
appropriate U.S. agencies. In conclusion, the history of the 
issue is that the POW/MIA Office informed senior Department of 
Defense officials immediately upon learning about the actions 
of the presumably Cuban interrogators. Those officials 
immediately directed appropriate intelligence and investigative 
agencies to try to identify those interrogators. In 1974, CIA 
analysts tentatively identified two Cuban officials as the 
interrogators ``Fidel'' and ``Chico.'' Their victims, however, 
were not able to confirm their identities.
    We have also kept the Congress and the public informed. We 
will remain a repository of historical information about all 
aspects of the POW/MIA issue and remain ready to share that 
historical information with appropriate Federal intelligence 
and investigative offices. However, as Secretary Jones stated 
earlier, we believe that DPMO should not become involved in 
efforts to investigate the program and jeopardize our 
accounting mission.
    I am ready to respond to questions.
    [The prepared statement of Mr. Destatte appears in the 
appendix.]
    Ms. Ros-Lehtinen. Thank you so much. There were several 
Vietnamese interrogators at ``The Zoo,'' as we had heard from 
the POW's, ``Spot,'' ``Rabbit,'' ``Elf,'' in addition to the 
camp commander who we discussed in the previous panel known as 
``The Lump.''
    Have any attempts been made by DOD or any other U.S. agency 
to question these individuals in order to try to obtain further 
information about these Cuban torturers?
    Mr. Destatte. I personally asked the interrogator whom 
Captain Vohden and Colonel Bomar call ``The Rabbit'' about this 
program. While he acknowledged that these men were Cubans, he 
did not provide the names, and I don't know of any other 
efforts.
    Ms. Ros-Lehtinen. So he said they were Cubans.
    Mr. Destatte. I don't recall the exact words of the 
conversation, but it was during a formal interview. My memory 
is that I mentioned to him that several of our returned POW's 
described having been interrogated by Cubans at the POW camp 
the Americans called ``The Zoo,'' and that the Vietnamese 
called Nga Tu So.
    Ms. Ros-Lehtinen. When did this conversation take place?
    Mr. Destatte. This conversation took place--I would have to 
check my notes--in the early 1990's, sometime in 1992.
    Ms. Ros-Lehtinen. We will followup on that. Thank you.
    Without actually revealing the details since the report is 
still classified, do you know the origin, the author, the 
source of the information in the CIA report on the ``Cuba 
Program'' and the two men mentioned in the CIA report, 
``Fidel'' and ``Chico,'' as possibly being Cuban agents, part 
of Castro's Ministry of Interior. Was any followup done to this 
CIA report?
    Mr. Destatte. There was followup. The CIA report included, 
as an enclosure, a 1959 photograph of the Cuban their analysts 
believe was ``Fidel.'' The Air Force, Air Force investigator 
showed that photograph to seven of the victims of the program. 
Six of those men stated that they were unable to confirm that 
this was ``Fidel.'' The seventh, as I mentioned in my 
statement, Colonel Waltman, believed that it was ``Fidel,'' or 
at least the most look-alike photograph he had seen of 
``Fidel.''
    Other persons have looked at that photograph. As a matter 
of fact, at the close of the last panel, I asked Colonel 
Carpenter, who was sitting behind the table here, and Captain 
Vohden again about that, and they were quite insistent this is 
not ``Fidel.'' So I suppose, parenthetically, our experience 
has been that making identifications of persons from 
photographs is a very uncertain endeavor. It is unlikely to 
yield conclusive results.
    Ms. Ros-Lehtinen. Mr. Jones, you had said in your testimony 
that you will soon be in Vietnam, in just a few days. In our 
dealings with the Vietnamese, particularly in recent years as 
trade negotiations have intensified, has the U.S. raised the 
issue of the ``Cuba Program'' specifically with those 
officials? Have there been any official requests for 
information? Why or why not?
    Mr. Jones. I cannot answer in regard to the trade 
negotiations because my office does not participate in those 
negotiations, ma'am. We are fully engaged in negotiating with 
the Vietnamese concerning accounting for missing Americans. So 
I am afraid I am not the person to answer that question.
    Ms. Ros-Lehtinen. Eliminate the part about trade 
negotiations. I just said that to parenthetically state that we 
are in such a positive working relationship with Vietnam that 
now we are discussing trade deals.
    But having nothing to do with trade, what about the many 
U.S. agencies that have specifically asked? Do you know if 
yours or any others asked the Vietnamese officials about the 
``Cuba Program,'' specific requests made for information?
    Mr. Jones. As I mentioned and as Mr. Destatte mentioned 
earlier, he personally took part in an oral history interview 
of one of the guards that was mentioned by the former POW's. So 
there has been some followup in that regard. However, as we 
testified earlier, all of the participants in this particular 
program have been accounted for. Thus, the role of my office 
has been completed in terms of investigating specifically what 
happened to those 19 individuals. We continue to act as a 
repository for the historical records related to that program.
    Ms. Ros-Lehtinen. Do you believe that the acts committed 
against the POW's violate the Geneva Convention? If those are 
found to be true, do you believe that, once identified, the 
three torturers should be tried as war criminals and that we 
should gear efforts toward that goal?
    Mr. Jones. As I testified in my statement, ma'am, I firmly 
support the goals that you stated earlier for the purposes of 
this hearing, and I most certainly believe that those 
individuals should be tracked down and brought to justice for 
their conduct.
    Ms. Ros-Lehtinen. Now, you had said that your specific 
agency has a specified mission. What agency then do you believe 
should lead the investigation on the ``Cuba Program'' and what 
agencies, in addition, should be included? Should CIA, DIA, 
FBI, State Department be? What agencies should be involved?
    Mr. Jones. Looking at the nature of the circumstances, I 
believe that the State Department should be lead agency. I 
believe that they have an office that is charged to investigate 
violations of the Geneva Convention and the laws of armed 
conflict. So I believe that the State Department would be the 
best agency to lead a review of this program and to conduct a 
followup investigation. I believe that they should be supported 
by the appropriate Intelligence Community--DIA, CIA, as well as 
the FBI.
    Ms. Ros-Lehtinen. Mr. Destatte, we understand that DPMO has 
joint commissions with Russia and is working together with 
former Eastern Bloc countries in an attempt to obtain 
information about American POW's which may have been sent to 
those countries during various Cold War conflicts. Further, we 
understand that television and other mediums are used to reach 
out to the general population of those countries so that they 
can help us have information to contribute.
    Have similar attempts been made regarding information on 
the ``Cuba Program'' and the torturers?
    Mr. Destatte. We have taken a different approach in 
Vietnam. Let me preface my remarks by stating that I helped 
open the first U.S. office in Vietnam after the war in 1991, 
and worked over there for the American POW/MIA Office which we 
opened in mid-1991. One of the first things we did was put 
together a program where we visited each of the military region 
headquarters and each of the province headquarters and 
delivered to each of those headquarters information about 
Americans who were lost in their respective areas, requesting 
their support in finding witnesses, finding documents and 
otherwise accounting for the men who were lost in those 
regions.
    We have also since 1988, approximately 5 times a year, sent 
for a month at a time approximately 100 Americans, mostly 
active duty military personnel, into Vietnam. They break down 
into small teams of varying sizes, they fan out through the 
country looking for information or excavating crash sites or 
grave sites that were discovered during earlier investigations. 
I believe that it would be difficult to find a single village 
in Vietnam that has not been visited at least once by one of 
our teams. I think it would be almost impossible to find an 
adult citizen of Vietnam who is not aware of our keen interest 
in accounting for our people.
    So we have taken a different approach in Vietnam than the 
Joint Commission is taking in Russia. I believe we have covered 
the country very effectively, and I believe the results that we 
have seen in recent years of this approach demonstrates the 
effectiveness of that approach.
    Mr. Jones. If I might add to that, I will be traveling to 
Moscow on Sunday. I will be in Moscow through the 10th of 
November. Rest assured that I will raise this at the U.S. 
Embassy in Moscow and with the Russian with whom I will be 
meeting.
    Ms. Ros-Lehtinen. Thank you, Mr. Jones. Have you had a 
chance to look at Ambassador Peterson's letter that we just 
received this morning? You will be following up with him and 
other officials in Vietnam on this issue?
    Mr. Jones. I am hopeful, ma'am, that we will have a 
response from the Vietnamese before I get to Vietnam. But if we 
do not, rest assured that I will speak to the Ambassador in 
regard to this program.
    Ms. Ros-Lehtinen. One last question: Are you aware of 
reports which state that the suspect that the CIA believes to 
be ``Fidel'' was in the U.S. and involved in smuggling arms to 
Castro in the 1950's; and did you know that both Alegret and 
Jaen were in the United States at the same time, and this comes 
from Alegret by his own admission as quoted in a book that was 
published by the Castro regime?
    We want to note, if there is any followup that you know of 
on this data, was it used to trying to discern which of the two 
was in fact ``Fidel,'' if any; and given that Alegret and the 
one whom the CIA believes to be ``Chico'' were in Louisiana and 
other U.S. locations at the same time, were there any efforts 
to determine whether Alegret was actually ``Chico,'' and that 
the name that the CIA had for ``Chico'' was an alias? What 
attempts have been made to followup on any of these bits of 
information?
    Mr. Destatte. I don't know that we have. I know that we do 
not have a comprehensive record of all the actions that were 
taken because, as I mentioned earlier, we were not the 
investigators. The investigations were conducted by the Air 
Force, by the other service agencies--the FBI, CIA, et cetera.
    The document that I mentioned to you earlier this morning 
recognizes that there are unconfirmed reports that Alegret 
attended high school in the United States. Given his age, I 
believe his date of birth is 1939, I graduated from high school 
in 1957, and I was born in 1939. So he was in the United States 
at conceivably the same time as Jaen, but under different 
circumstances. But that is just speculation on my part. I don't 
know what efforts were made by other agencies.
    Ms. Ros-Lehtinen. I think it is clear that since this first 
was looked at at this point in time a lot of new information 
has come out, a lot of new testimony, declassified papers, new 
information that could help us to identify these individuals; 
and certainly an interagency task force would be one of the 
ways to get at this information. We hope that that comes about.
    I would like to recognize Mr. Rohrabacher for questions.
    Mr. Rohrabacher. Thank you very much, Madam Chairman.
    Now, Mr. Destatte, you asked one of the guards----
    Mr. Destatte. Not a guard, he was a----
    Mr. Rohrabacher. Interrogator.
    Mr. Destatte. He was a commissioned officer. He described 
himself as an interpreter. POW's described him as an 
interrogator.
    Mr. Rohrabacher. You asked him about whether or not the 
other interrogators were Cuban, and the answer was?
    Mr. Destatte. I described the program in a sentence or 
two--my memory is that I described it in a sentence or two and 
asked him to comment on it. In response, he referred to them as 
Cubans. Now, whether he was following my lead or whether that 
was confirmation, I leave that up to your judgment.
    Mr. Rohrabacher. This was a formal interview, you said. 
That is how you described it?
    Mr. Destatte. Yes.
    Mr. Rohrabacher. You recorded this interview?
    Mr. Destatte. I don't recall whether we recorded that 
interview or not. I know typically when I write a report I 
usually record over the interview tapes in any event.
    Mr. Rohrabacher. You record over the interview tapes after 
you have conducted a formal interview?
    Mr. Destatte. The purpose of the recording the interview in 
most instances is to aid in report writing.
    Mr. Rohrabacher. I am a little fascinated by that. You are 
saying that of your formal interviews, you actually don't keep 
records of them then?
    Mr. Destatte. That is not what I said.
    Mr. Rohrabacher. It sounds like what you are telling me is 
that you record over the tapes when you do--I am just 
requesting you to send that tape and that interview to me.
    Mr. Destatte. If I have the tape.
    Mr. Rohrabacher. Seeing that you just said you record over 
the interviews, perhaps that will be a good excuse for not 
sending me the tape.
    But if you have it, I am making a formal request, Madam 
Chairman, from this Committee; and we will confirm this with 
the Chairman of the Committee, that this is a formal request 
from the Committee.
    Ms. Ros-Lehtinen. Thank you, Mr. Rohrabacher. We will pass 
that on to the Chairman, and I am sure that he will work with 
you on that.
    Mr. Rohrabacher. I would like the notes and the tape that 
you have from that interview.
    During that interview you said you asked about the names, 
but he wouldn't tell. Is that what you said?
    Mr. Destatte. Did not tell me.
    Mr. Rohrabacher. What year was this interview?
    Mr. Destatte. June, 1992.
    Mr. Rohrabacher. June, 1992.
    Mr. Destatte. I might add that the document that I just 
consulted for that date is part of the official record of the 
17 September 1996 hearing held by Congressman Dornan. You can 
find that document.
    Mr. Rohrabacher. All right. I am not just asking for the 
document; I am asking for that tape, and if the tape still 
exists----
    Mr. Destatte. As I told you, Congressman, that was several 
years ago. I do not know whether I have that specific tape or 
not. I told you that routinely when I use a tape recorder, 
which is not in all cases, I use the tape recorder only to 
assist me in writing my report. When I finish writing the 
report, typically I record over that. I will have to consult 
our files at the office to know whether or not I retained a 
copy of that tape.
    Mr. Rohrabacher. That is fine. It just doesn't seem that 
that is a very professional way to handle----
    Mr. Destatte. Sir, I resent your implications that I am 
being less than honest with you.
    Mr. Rohrabacher. You may resent anything you want. I am 
here to ask questions. If you resent those questions----
    Mr. Destatte. Sir, I came here to provide accurate 
information.
    Mr. Rohrabacher. How long have you been in the position 
that you are in today with this POW/MIA issue?
    Mr. Destatte. I joined this issue in September 1979.
    Mr. Rohrabacher. Is it normal that they have someone who is 
an employee of the Department of Defense at the same job for as 
long as that?
    Mr. Destatte. I don't know what is ``normal'' in that 
respect.
    Mr. Rohrabacher. You don't know what is normal policy for 
the Department of Defense where you have worked for all those 
years? You haven't noticed that other jobs seem to be rotating, 
but you seem to be staying in the same spot?
    Mr. Destatte. I don't know your point.
    Mr. Jones. Mr. Rohrabacher, rest assured, as soon as we 
return to the office, we will ascertain if the documents and 
the tape that you are requesting are in fact part of our files. 
I will do everything to personally ensure that you receive 
those documents.
    Mr. Rohrabacher. Thank you.
    Was this the first time that you testified that we knew the 
day after the prisoners got back that there was a Cuban 
interrogation program? Was this the first time, in your 
interview in 1992, that a Vietnamese was officially asked about 
the ``Cuba Program''?
    Mr. Destatte. Let me repeat, our mission is to account for 
missing personnel.
    Mr. Rohrabacher. Yes.
    Mr. Destatte. The purpose of my interview that day was to 
gather information that would lead to an accounting for our 
personnel. Out of personal curiosity on this particular issue, 
the ``Cuba Program,'' I took advantage of the opportunity to 
ask that question.
    Mr. Rohrabacher. You don't believe that perhaps--we have a 
picture of a gentleman who is murdered under interrogation by 
these Cubans; you don't think that there might perhaps be 
another American that was unaccounted for that might have been 
murdered by the same program that we don't know about and that 
maybe that is your job?
    Mr. Destatte. That assertion rests on the preposterous 
notion that the 19 survivors of that program either, failed to 
know about this alleged other prisoner, or knowing about it, 
failed to tell about it when they came home.
    Mr. Rohrabacher. Is it preposterous to say then that there 
is information about this program that those 19 prisoners may 
not know about?
    Mr. Destatte. No, I didn't say that.
    Mr. Rohrabacher. That is what it sounds like you are 
saying.
    Is it preposterous, for example, that the Vietnamese kept 
Ambassador Peterson, when he was a POW, totally isolated from 
the other POW's for the first three years of his captivity? Is 
that a preposterous suggestion?
    Mr. Destatte. Are you familiar with the record?
    Mr. Rohrabacher. No other POW knew that Congressman 
Peterson was being held captive during those first three years; 
is that preposterous?
    Mr. Destatte. How does that relate to our discussion here?
    Mr. Rohrabacher. It relates to it because you have a 
situation with interrogators from Cuba who may have information 
about prisoners that is not being followed up on by you, and it 
is your job to followup on it. It is your job to determine if 
there are any MIA's out there.
    Mr. Destatte. Are you suggesting then that there was a 
secret POW camp system or something of that nature?
    Mr. Rohrabacher. Well----
    Mr. Destatte. I truly don't understand your question.
    Mr. Rohrabacher. I will tell you. I will tell what you my 
question is. My question is, is there any evidence that perhaps 
some MIA's or people who were MIA were being held during that 
time period and were actually POW's, and the information was 
not available to the rest of the prisoners or to the United 
States Government?
    Mr. Destatte. I believe that we know the identity of every 
American who was in that prisoner of war camp during that 
period of time, and that all of those prisoners are accounted 
for.
    Mr. Rohrabacher. That was a really good answer to a 
question that I didn't ask. It was really great of you to word 
it that way.
    Mr. Destatte. I believe that our focus on the ``Cuba 
Program'' and what the----
    Mr. Rohrabacher. The point, Mr. Destatte, is that the 
``Cuba Program'' may be a key to answer some information about 
other missing prisoners rather than just these 19.
    Now, they have committed crimes----
    Mr. Destatte. To the best of our knowledge and the to best 
of the knowledge of the witnesses that have appeared here 
today, those Cubans were active in one prisoner of war camp, 
the prisoner of war camp that our American prisoners called 
``The Zoo,'' that the Vietnamese called Nga Tu So. We know the 
identity of every American who was in that camp, and all of 
those Americans are accounted for.
    Now, if you have information that the Cubans were active in 
another camp, fine. I don't have that information.
    Mr. Rohrabacher. Did you ask in your formal interview in 
1992 whether there were Cubans involved in any other camps?
    Mr. Destatte. As I told you before, the purpose of that 
interview was to learn information that might help us account 
for Americans who were still unaccounted for, not to learn 
about the ``Cuba Program.'' The Americans who were involved in 
the ``Cuba Program'' are all accounted for.
    Mr. Rohrabacher. Fine. Luckily, I have some time to 
followup on these questions on the record rather than being 
stuck at five minutes, so your attempt to use up the time will 
not get you off the hook.
    Is the fact that there might be another Cuban prison camp 
which might indicate that there are some American POW's that 
you didn't know about, but you are not bothering to ask whether 
there were Cubans at another prison in this particular formal 
interview that you went through?
    Mr. Destatte. I believe that the information that the 
intelligence services, that the DPMO and its predecessor 
office, have collected over the years allows us to state with 
confidence that we know of every POW camp which held American 
prisoners in North Vietnam and all of the prisoners that were 
in those camps; and all of those prisoners were accounted for. 
There is no separate prison camp or there are no American 
prisoners who were held in a separate prison.
    The question about the possibility of Cubans in another 
prison camp is a moot question. There wasn't another prison 
camp for them.
    Mr. Rohrabacher. Not even worth asking about it. Not even 
worth asking, right? Here you are, the one we are depending on 
to get this information.
    Mr. Destatte. No, sir, you are depending on my office to 
account for Americans who are still unaccounted for. If you 
want to know about the Cubans, if you want to know what the 
Cubans did or did not do in Vietnam, then, as we have said 
before, we suggest that you address that question to agencies 
that are appropriately chartered to pursue those questions.
    Mr. Rohrabacher. Is your office tasked with coordinating 
all government activity in terms of POW/MIA's in Vietnam?
    Mr. Destatte. We are tasked with accounting for Americans 
who failed to return home at the end of the war.
    Mr. Rohrabacher. Are you tasked with coordinating the 
activity of other government agencies?
    Mr. Jones. Sir, my office as the Director of--DPMO is to be 
responsible to make sure what we do everything we possibly can 
to account for missing Americans, and that includes interagency 
coordination.
    Mr. Rohrabacher. So if these questions were going to be 
examined, you would have to actually make the request or 
coordinate the activity?
    Mr. Destatte. No.
    Mr. Rohrabacher. OK.
    Mr. Jones. Sir, in regard to that comment, I would like to 
say, if you recall, in my written testimony, I did in fact send 
recently a request to the other Federal agencies to determine 
if they had any other additional information related to this 
program.
    Mr. Rohrabacher. All right.
    Now, in 1992, when you conducted this formal interview for 
which the tapes may be missing, you asked whether or not there 
were Cubans involved, and you didn't ask whether the Cubans 
were involved in any other camps. But after that, you said that 
they didn't want to give you the names.
    You asked for the names; they wouldn't give you any names 
involved. Yet haven't you categorized the North Vietnamese, or 
I should say, the Vietnamese activities involved with MIA/POW's 
as being in full cooperation with your efforts?
    Mr. Jones. Sir, that is a certification that is required by 
the Congress of the United States. It is made by the Department 
of State and the President of the United States. We provide 
statistical information to support that.
    Mr. Rohrabacher. If we have a question being asked, and you 
know what the names of these torturers of Americans are, and we 
aren't getting an answer, isn't that somewhat less than full 
cooperation?
    Mr. Jones. Sir, that question was asked of the Vietnamese 
on October 9th by Ambassador Peterson.
    Mr. Rohrabacher. It was asked in June 1992.
    Mr. Destatte. Let me comment on that.
    The answer to that question does not contribute one iota to 
our efforts to account for Americans who are missing, and that 
is not----
    Mr. Rohrabacher. You don't think that the torture of 
Americans in prisons in Vietnam and finding them and trying to 
ask them what went on and who it was that they were dealing 
with would lead to any information that we might not know about 
who was being held?
    Have you ever met with the person that the prisoners have 
called ``The Lump''?
    Mr. Destatte. I have no idea who he is.
    Mr. Rohrabacher. That is not the question, have you ever 
met with the person. You are saying that you have not; is that 
correct?
    Mr. Destatte. That is correct.
    Mr. Rohrabacher. Now ``The Lump,'' of course, is a 
Vietnamese. Is this part of our request to the Vietnamese 
Government to provide ``The Lump'' and interviews with ``The 
Lump''; is that part of our request that was made by Ambassador 
Peterson?
    Mr. Jones. Sir, I cannot say what Ambassador Peterson 
requested of the Vietnamese. I was not present.
    Mr. Rohrabacher. So if we know this fellow known as ``The 
Lump'' has been identified, they could say who they think he 
was. I think that was part of the testimony today--maybe not--
that was part of the testimony that they could identify him. We 
have not made an official request to talk to him; is that 
right?
    Mr. Jones. Sir, I am not aware of the identity of anyone 
called ``The Lump'' that was made available to my office.
    Mr. Rohrabacher. All right. So we have a request for the 
names of the Cubans turned down in 1992 by a low-level person, 
and that wasn't followed up again until seven years later, I 
guess just recently, when Ms. Ros-Lehtinen decided to call some 
attention here. Again, it seems to me that what we are talking 
about is less than full cooperation with our efforts.
    By the way, this idea, Mr. Destatte, about demanding that 
people who tortured Americans be sought and be prosecuted for 
war crimes, risks undoing all the work that we have done.
    Mr. Destatte. Sir, that is a distortion of my statement.
    Mr. Rohrabacher. Go right ahead and clarify it.
    Mr. Destatte. I said that pursuit of that objective by my 
office would risk jeopardizing our ability to accomplish our 
mission.
    If you wish to pursue that, my recommendation would be that 
you pursue that through an agency of the U.S. Government that 
is duly chartered to pursue those kinds of investigations.
    Mr. Rohrabacher. But is not your office duly chartered to 
task other government agencies with this type of activity?
    Mr. Destatte. Is it not your suggestion that we do what we 
have just told you, which is not appropriate for our office, 
and that is to investigate war crimes?
    Mr. Rohrabacher. If you are an American citizen and 
American citizens have been tortured and a crime has been 
committed against American military personnel----
    Mr. Destatte. There are 2,047 families that are waiting for 
answers on their missing family member. Our obligation is to 
account for their missing family member.
    The mission of investigating war crimes lies elsewhere in 
the Federal Government, and I would suggest that you would get 
better answers by pursuing it there.
    Mr. Rohrabacher. War crimes committed against those people, 
the torture, the brutal torture of American prisoners of war? 
Is this of concern to you?
    Mr. Destatte. As I told you before, we believe that we know 
the identity of every American who was a prisoner of war, and 
they are accounted for, those who were in the camps in North 
Vietnam.
    Mr. Jones. Sir, if I might interject here----
    Mr. Rohrabacher. Because of the full cooperation the North 
Vietnamese have been giving to you, what about again making 
just one last attempt at this. Ambassador Peterson and several 
other POW's and MIA's who eventually became POW's, were kept in 
isolated camps and did not intermingle and were declared 
missing in action, and no one knew whether they were alive or 
dead for several years--isn't that the case?
    Mr. Destatte. I would have to go back and look at the 
record.
    Mr. Rohrabacher. Let me clarify the record for you. 
Ambassador Peterson told me that personally.
    Mr. Destatte. I also accompanied Ambassador Peterson back 
to that very prison camp, and he described for me and the 
others with him how he communicated--even though isolated, how 
he communicated with prisoners in other parts of that prison.
    So I must tell you, I am not sure that you are accurately 
portraying what he said. I would have to go back to the record 
and refresh my memory.
    Mr. Rohrabacher. I would hope that having been active for 
so long on this issue that your memory would be pretty good, 
considering that you knew we were going to have a hearing 
today.
    Mr. Destatte. I came here to discuss the ``Cuba Program,'' 
not to discuss the----
    Mr. Rohrabacher. The possibility that there were other 
Cubans involved in torturing Americans someplace else. That is 
what the question is. These people are what I am trying to lead 
to, of course----
    Mr. Destatte. Persons were held in approximately--I don't 
recall the exact figure offhand, but I believe--eleven 
different locations in North Vietnam in the Hanoi area.
    Mr. Rohrabacher. That we know of.
    Mr. Destatte. We believe that that there were no others. 
That has been looked at not just by myself. Thousands of 
Americans have looked at that issue very carefully, and there 
is not a shred of evidence that there was any other prison that 
held Americans.
    Mr. Rohrabacher. I will just have to say that I am not 
convinced, and we have other people who are honest American 
citizens who have looked into this and are not convinced.
    Some questions don't seem to be asked; they don't seem to 
be asked and we seem to be cataloguing or categorizing the 
Vietnamese as being fully cooperating with us when we are 
afraid to ask certain questions of them.
    Mr. Destatte. I don't believe that that is a fair 
statement. The ``we'' in this case, I presume, means the U.S. 
Government; and the U.S. Government has asked the question. 
This particular office of the U.S. Government should not be 
asking those kinds of questions.
    Mr. Rohrabacher. I am glad that you are so committed to 
your humanitarian mission. I think it is extraordinary that one 
individual has been at the Department of Defense at the same 
humanitarian mission all of these years, and I think that the 
reason why there are rotations in jobs like your own in the 
Department of Defense is to ensure that one person or several 
people cannot monopolize information and use their own judgment 
that may be good or bad judgment.
    Mr. Destatte. There are approximately 120 or 130 men and 
women in our office. There is quite a turnover. There is always 
fresh blood, there are always fresh views. There is always a 
fresh questioning of assumptions and conclusions.
    But there are also a few old-timers who help ensure that we 
don't reinvent the wheel every one or two years. One of our 
greatest mistakes during the Vietnam War was the 
institutionalization of inexperience, the one-year tour, very 
oftentimes broken up into six months in a given assignment.
    I would suggest that the alternative to having experience 
is chaos.
    Mr. Jones. Mr. Chairman, if I might interject at this 
point, the success of my office, as I testified earlier, has 
been based solely upon our capability to access foreign 
countries, their citizens, their historical archives without 
retribution, to assist us in accounting for the missing 
Americans around the globe. We have, in fact, been very 
successful in that because we have not pursued war crimes, we 
have left that up to the appropriate agencies.
    As I testified earlier, I believe that such an 
investigation into the ``Cuba Program'' should be led by the 
appropriate office within the Department of State, supported by 
those other agencies who have the capabilities to assist them 
in that investigation. I would say for the record that based 
upon the current evidence on record, we have no evidence to 
substantiate that there was another ``Cuba Program'' outside 
the one that we are discussing here today.
    Mr. Rohrabacher. OK.
    Several years ago, when I went to Vietnam with Mr. Peterson 
while he was a Member of Congress, we participated in 
negotiations with the Vietnamese. At that time, I asked for the 
records of the prisons that the Vietnamese had of all the 
Americans, and we were told that those records were not 
available. Many of them are like they were erased after doing 
other interviews, I guess, or their records were blown up by B-
52 raids near the end of the war.
    Now, I didn't really accept that answer, and I made an 
official request of them and asked our government, the people 
involved in this, to follow through on insisting on receiving 
the records of those camps, so that we could prove or disprove 
whether or not there was a possibility that there were people 
kept without other people knowing about it. Because that 
information would only be available in those records.
    Has there been a turnover of these records to us? I guess I 
made that request five years ago.
    Mr. Destatte. The Vietnamese have turned over quite a large 
number of records. I don't recall the exact number, but it is 
in the thousands. Among those records, the only record that 
comes to mind that fits the description that you have put forth 
is a record that the Vietmanese say is a record of all 
Americans who entered the prison system in the North. That has 
been turned over to us.
    Mr. Rohrabacher. I am not talking about a record of all 
Americans; I am talking about a record of their prison system, 
and I was very clear about that. These people, like every other 
military or government operation, they kept records of how much 
food they bought, how much it cost, who was in charge of 
procuring food, how many people they were protecting and 
guarding, how many people they were taking care of.
    Mr. Destatte. I recall you and I had a conversation about 
that on a bus in Hanoi. I made a memorandum of that 
conversation, and I would like to ask permission to provide a 
copy of that memorandum of record of our conversation to the 
Committee and make it a part of the official record of this 
hearing. I believe that will answer the question for the 
Committee.
    Mr. Rohrabacher. Maybe instead of holding off to the point 
that we can't ask a followup question, maybe you could answer 
the question now, rather than us waiting for the memorandum?
    Have the Vietnamese provided the information that I 
requested about their camps?
    Mr. Destatte. To the best of my knowledge, they have not 
provided the document that you requested. But again I ask if I 
might be permitted to enter into the record, in its entirety, 
my memorandum of record of that conversation.
    Mr. Rohrabacher. Mr. Chairman, they have not complied with 
the request. Yet we are talking about the Vietnamese as fully 
cooperating with us. I think I should leave it at that. I thank 
the Chairman for his indulgence.
    Chairman Gilman. [Presiding.] Thank you, Mr. Rohrabacher.
    Mr. Rohrabacher. I appreciate Ms. Ros-Lehtinen permitting 
me to have the time. Usually I get five minutes to ask 
questions. I think this has been very valuable for all 
concerned.
    Chairman Gilman. Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Just a followup question on the line of 
questions that Mr. Rohrabacher said. We had a previous 
panelist, as you know, Andres Garcia; and he referred to the 
experiences of another Cuban American veteran, several of them, 
who were told that there were Cubans who served as 
interrogators across the Cambodian borders, a presence of 
Cubans possibly, and in other places beyond ``The Zoo.'' We 
have been talking about that with Mr. Rohrabacher, that line of 
questioning; and just to reiterate, we believe that is an 
important area for us to do further investigation and finding 
out, even though you believe that other POW's may not have been 
tortured by these other Cubans.
    Mr. Destatte. I can give you an answer to that offhand.
    There were two camps for Americans in Cambodia. The one 
camp was a camp administered by what the Communists called 
Headquarters B-3 Front. This was the military headquarters that 
controlled their main force units in the Western Highlands. The 
other camp was subordinate to what they called B-2 Front.
    In both instances, these camps were mobile, and the B-2 
Front camp moved around the area along the border between 
Vietnam and Cambodia. Many Americans have returned from that 
camp and there is no evidence at all that there was any Cuban 
involvement in either of those camps.
    Ms. Ros-Lehtinen. Thank you. We look forward to working 
with you and especially with the other agencies to followup on 
some of these leads and reopen this case so that justice can be 
done in the memory of Earl Cobeil, the U.S. Air Force pilot who 
was murdered while in captivity, and to honor the brave service 
of these men who were testifying today and others who could not 
be here with us.
    Mr. Destatte. If I could ask your indulgence for just a 
moment, we got off the track here for awhile. I share the 
interests of all Americans in ensuring that these people who so 
brutally treated our POW's and, in particular, beat Major 
Cobeil to death, are brought to justice properly. But at the 
same time, I think that it should be done in such a way that 
does not jeopardize our mission to account for those Americans 
who are still missing.
    Chairman Gilman. Thank you, Mr. Destatte.
    Thank you Ms. Ros-Lehtinen.
    I have just two brief questions. Secretary Jones, the fall 
of the Berlin Wall created an opportunity to seek information 
from our former Soviet bloc adversaries on the ``Cuba Program'' 
and other POW-related matters. Can you please tell us what 
efforts have been made to date to glean information from 
Eastern European and other sources?
    Mr. Jones. Sir, my office has the responsibility for the 
oversight of the Joint Commission in support of the U.S.-Russia 
Commission. I have staff routinely conducting oral history 
interviews in former Eastern Bloc countries, former Soviet 
Union countries.
    Chairman Gilman. That is still ongoing?
    Mr. Jones. Yes, sir. As I mentioned while you were voting, 
sir, I will personally be in Moscow this weekend and will be 
meeting with the U.S.-Russia Commission in Moscow.
    Chairman Gilman. Thank you.
    Mr. Destatte, documents provided to our Committee provide 
uncorroborated reports that American POW's may have been taken 
from Vietnam to Cuba. Can you comment on those reports and tell 
the Committee what efforts have been made to look into and 
verify if such transfers did indeed take place?
    Mr. Destatte. I am not familiar with those particular 
reports. But as I said earlier, I believe that we know the 
identity of all Americans who were held as prisoners in the 
Vietnamese prison system, and I believe they are all accounted 
for, either through their return, alive, the return of the 
remains; or in some cases, their deaths have been confirmed, 
but we have not yet been able to recover their----
    Chairman Gilman. Have you asked any specific questions with 
regard to that issue, the Cubans?
    Mr. Destatte. Transfer of Americans--I think in a general 
sense that we pursued this question in our pursuit of 
information about Americans in the camps, we can answer that; 
but no, we have not investigated specifically or focused 
specifically on that that I am aware of.
    Chairman Gilman. Let me ask that you do pursue that and get 
back to our Committee with any response you get.
    Chairman Gilman. Mr. Jones, when you travel to Vietnam in 
the near future, we would like to ask you to make an effort, 
either directly or through our embassy, to secure meetings with 
the former guards at ``The Zoo'' or others who might be able to 
identify ``Fidel'' and the other torturers.
    Would you make a request of that when you----
    Mr. Jones. Sir, I will be more proactive than that.
    I will request that my the collection unit, Stony Beach 
pursue this task and immediately begin to try to interview 
those individuals.
    Chairman Gilman. Thank you very much.
    Secretary Jones, how many F-111's were shot down? How many 
F-111 pilots survived and how many were returned?
    Mr. Jones. Sir, I am not qualified to answer that type of 
technical question. May I defer to Mr. Destatte and see if he 
has the information at hand.
    Chairman Gilman. F-111's?
    Mr. Destatte. Can I give you a written answer on that? I 
don't recall that offhand.
    Chairman Gilman. If you could provide that for a Committee, 
we would appreciate that.
    Ms. Ros-Lehtinen. I want to thank you so much, Mr. 
Chairman, for your leadership and your commitment to 
discovering the truth about this terrible ``Cuba Program.'' We 
thank you so much.
    Chairman Gilman. We thank our witnesses for your patience 
and for being here with us throughout the questioning, and we 
appreciate your response.
    Committee will stand adjourned.
    [Whereupon, at 1:05 p.m., the Committee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                            November 4, 1999

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T5278.001
    
    [GRAPHIC] [TIFF OMITTED] T5278.002
    
    [GRAPHIC] [TIFF OMITTED] T5278.003
    
    [GRAPHIC] [TIFF OMITTED] T5278.004
    
    [GRAPHIC] [TIFF OMITTED] T5278.005
    
    [GRAPHIC] [TIFF OMITTED] T5278.006
    
    [GRAPHIC] [TIFF OMITTED] T5278.007
    
    [GRAPHIC] [TIFF OMITTED] T5278.008
    
    [GRAPHIC] [TIFF OMITTED] T5278.009
    
    [GRAPHIC] [TIFF OMITTED] T5278.010
    
    [GRAPHIC] [TIFF OMITTED] T5278.011
    
    [GRAPHIC] [TIFF OMITTED] T5278.012
    
    [GRAPHIC] [TIFF OMITTED] T5278.013
    
    [GRAPHIC] [TIFF OMITTED] T5278.014
    
    [GRAPHIC] [TIFF OMITTED] T5278.015
    
    [GRAPHIC] [TIFF OMITTED] T5278.016
    
    [GRAPHIC] [TIFF OMITTED] T5278.017
    
    [GRAPHIC] [TIFF OMITTED] T5278.018
    
    [GRAPHIC] [TIFF OMITTED] T5278.019
    
    [GRAPHIC] [TIFF OMITTED] T5278.020
    
    [GRAPHIC] [TIFF OMITTED] T5278.021
    
    [GRAPHIC] [TIFF OMITTED] T5278.022
    
    [GRAPHIC] [TIFF OMITTED] T5278.023
    
    [GRAPHIC] [TIFF OMITTED] T5278.024
    
    [GRAPHIC] [TIFF OMITTED] T5278.026
    
    [GRAPHIC] [TIFF OMITTED] T5278.027
    
    [GRAPHIC] [TIFF OMITTED] T5278.028
    
    [GRAPHIC] [TIFF OMITTED] T5278.029
    
    [GRAPHIC] [TIFF OMITTED] T5278.030
    
    [GRAPHIC] [TIFF OMITTED] T5278.031
    
    [GRAPHIC] [TIFF OMITTED] T5278.032
    
    [GRAPHIC] [TIFF OMITTED] T5278.033
    
    [GRAPHIC] [TIFF OMITTED] T5278.034
    
    [GRAPHIC] [TIFF OMITTED] T5278.035
    
    [GRAPHIC] [TIFF OMITTED] T5278.036
    
    [GRAPHIC] [TIFF OMITTED] T5278.037
    
    [GRAPHIC] [TIFF OMITTED] T5278.038
    
    [GRAPHIC] [TIFF OMITTED] T5278.039
    
    [GRAPHIC] [TIFF OMITTED] T5278.040
    
    [GRAPHIC] [TIFF OMITTED] T5278.041
    
    [GRAPHIC] [TIFF OMITTED] T5278.042
    
    [GRAPHIC] [TIFF OMITTED] T5278.043
    
    [GRAPHIC] [TIFF OMITTED] T5278.044
    
    [GRAPHIC] [TIFF OMITTED] T5278.045
    
    [GRAPHIC] [TIFF OMITTED] T5278.047
    
    [GRAPHIC] [TIFF OMITTED] T5278.048
    
    [GRAPHIC] [TIFF OMITTED] T5278.049
    
    [GRAPHIC] [TIFF OMITTED] T5278.050
    
    [GRAPHIC] [TIFF OMITTED] T5278.051
    
    [GRAPHIC] [TIFF OMITTED] T5278.052
    
    [GRAPHIC] [TIFF OMITTED] T5278.053
    
    [GRAPHIC] [TIFF OMITTED] T5278.054
    
    [GRAPHIC] [TIFF OMITTED] T5278.055
    
    [GRAPHIC] [TIFF OMITTED] T5278.056
    
    [GRAPHIC] [TIFF OMITTED] T5278.057
    
    [GRAPHIC] [TIFF OMITTED] T5278.058
    
    [GRAPHIC] [TIFF OMITTED] T5278.059
    
    [GRAPHIC] [TIFF OMITTED] T5278.060
    
    [GRAPHIC] [TIFF OMITTED] T5278.061
    
    [GRAPHIC] [TIFF OMITTED] T5278.062
    
    [GRAPHIC] [TIFF OMITTED] T5278.063
    
    [GRAPHIC] [TIFF OMITTED] T5278.064
    
    [GRAPHIC] [TIFF OMITTED] T5278.065
    
    [GRAPHIC] [TIFF OMITTED] T5278.066
    
    [GRAPHIC] [TIFF OMITTED] T5278.067
    
    [GRAPHIC] [TIFF OMITTED] T5278.068
    
    [GRAPHIC] [TIFF OMITTED] T5278.069
    
    [GRAPHIC] [TIFF OMITTED] T5278.070
    
    [GRAPHIC] [TIFF OMITTED] T5278.071
    
    [GRAPHIC] [TIFF OMITTED] T5278.072
    
    [GRAPHIC] [TIFF OMITTED] T5278.073
    
    [GRAPHIC] [TIFF OMITTED] T5278.074
    
    [GRAPHIC] [TIFF OMITTED] T5278.075
    
    [GRAPHIC] [TIFF OMITTED] T5278.076
    
    [GRAPHIC] [TIFF OMITTED] T5278.077
    
    [GRAPHIC] [TIFF OMITTED] T5278.078
    
    [GRAPHIC] [TIFF OMITTED] T5278.079
    
    [GRAPHIC] [TIFF OMITTED] T5278.080
    
    [GRAPHIC] [TIFF OMITTED] T5278.081
    
    [GRAPHIC] [TIFF OMITTED] T5278.082
    
    [GRAPHIC] [TIFF OMITTED] T5278.083
    
    [GRAPHIC] [TIFF OMITTED] T5278.084
    
    [GRAPHIC] [TIFF OMITTED] T5278.085
    
    [GRAPHIC] [TIFF OMITTED] T5278.086
    
    [GRAPHIC] [TIFF OMITTED] T5278.087
    
    [GRAPHIC] [TIFF OMITTED] T5278.088
    
    [GRAPHIC] [TIFF OMITTED] T5278.089
    
    [GRAPHIC] [TIFF OMITTED] T5278.090
    
    [GRAPHIC] [TIFF OMITTED] T5278.091
    
    [GRAPHIC] [TIFF OMITTED] T5278.092
    
    [GRAPHIC] [TIFF OMITTED] T5278.093
    
    [GRAPHIC] [TIFF OMITTED] T5278.094
    
    [GRAPHIC] [TIFF OMITTED] T5278.095
    
    [GRAPHIC] [TIFF OMITTED] T5278.096
    
    [GRAPHIC] [TIFF OMITTED] T5278.097
    
    [GRAPHIC] [TIFF OMITTED] T5278.098
    
    [GRAPHIC] [TIFF OMITTED] T5278.099
    
    [GRAPHIC] [TIFF OMITTED] T5278.100
    
    [GRAPHIC] [TIFF OMITTED] T5278.101
    
    [GRAPHIC] [TIFF OMITTED] T5278.102
    
    [GRAPHIC] [TIFF OMITTED] T5278.103
    
    [GRAPHIC] [TIFF OMITTED] T5278.104
    
    [GRAPHIC] [TIFF OMITTED] T5278.105
    
    [GRAPHIC] [TIFF OMITTED] T5278.106
    
    [GRAPHIC] [TIFF OMITTED] T5278.107
    
    [GRAPHIC] [TIFF OMITTED] T5278.108
    
    [GRAPHIC] [TIFF OMITTED] T5278.109
    
    [GRAPHIC] [TIFF OMITTED] T5278.110
    
    [GRAPHIC] [TIFF OMITTED] T5278.111
    
    [GRAPHIC] [TIFF OMITTED] T5278.112
    
    [GRAPHIC] [TIFF OMITTED] T5278.113
    
    [GRAPHIC] [TIFF OMITTED] T5278.114
    

</pre></body></html>
